<html>
<title> - WEAK STATES IN AFRICA--U.S. POLICY OPTIONS IN THE DEMOCRATIC REPUBLIC OF THE CONGO</title>
<body><pre>[Senate Hearing 107-577]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-577

 WEAK STATES IN AFRICA--U.S. POLICY OPTIONS IN THE DEMOCRATIC REPUBLIC 
                              OF THE CONGO

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              APRIL 9, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


80-845              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman
CHRISTOPHER J. DODD, Connecticut     BILL FRIST, Tennessee
BARBARA BOXER, California            SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         GORDON H. SMITH, Oregon
    Virginia

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Bellamy, William, Acting Assistant Secretary of State for African 
  Affairs, Department of State, Washington, DC...................     4
    Prepared statement...........................................     6
Dees, Learned, program officer for Africa, National Endowment for 
  Democracy, Washington, DC......................................    22
    Prepared statement...........................................    25
Edgerton, Anne C., advocate, Refugees International, Washingtom, 
  DC.............................................................    28
    Prepared statement and Refugees International Bulletin of 
      Jan. 28, 2002..............................................    31
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................     3
Hara, Fabienne, Africa Project co-director, International Crisis 
  Group, Brussels, Belgium.......................................    15
    Prepared statement...........................................    19

                                 (iii)

  

 
 WEAK STATES IN AFRICA--U.S. POLICY OPTIONS IN THE DEMOCRATIC REPUBLIC 
                              OF THE CONGO

                              ----------                              


                         TUESDAY, APRIL 9, 2002

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 2:31 p.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Russell D. Feingold (chairman of 
the subcommittee), presiding.
    Present: Senator Feingold.
    Senator Feingold. I will call this hearing to order. Good 
afternoon.
    I want to thank all the witnesses for being here to testify 
at this hearing on ``Weak States in Africa--U.S. Policy Options 
in the Democratic Republic of the Congo.'' This is the second 
in a series of hearings that share two primary aims.
    First, the subcommittee hopes to examine those 
characteristics of Africa's weakest states that draw 
international criminal activity to the region, focusing on 
issues such as illicit air transport networks and trafficking 
in arms and gem stones and people.
    Second, the subcommittee seeks to identify long-term policy 
options for changing the context in these states such that they 
are no longer as appealing to criminal opportunists.
    Broadly, I am hoping that we can apply some of the lessons 
that have been learned from South Asia recently to the sub-
Saharan context, lessons about the very serious consequences of 
disengagement and neglect while states collapse and 
institutions falter.
    We began this series with a very useful hearing on Somalia, 
and today we proceed to the Democratic Republic of the Congo 
[DRC]. Of course, the situations of Somalia and the DRC are 
dramatically different. I hope that this subcommittee will go 
on to look at Liberia in this same broad context, and there 
too, the situation on the ground is distinct from other cases. 
In fact, the particulars of each case are part of the point I 
hope to make: we need to craft careful, nuanced, and long-term 
policies tailored to each situation if we are to avoid the 
prospect of sustained state failure.
    Today I hope that we will hear from our witnesses about the 
prospects for international criminal activity to flourish in 
Central Africa and the relationship between this activity and 
Congo's instability. We are also interested in a status report 
on the implementation of the Lusaka Accord, the MONUC mission, 
and the inter-Congolese dialog. What are the current obstacles 
to progress, and what steps can the United States take to help 
address these problems?
    Finally and most importantly, we are seeking prescriptions 
for a long-term policy toward the DRC. What steps can the 
United States take to bolster a peaceful Congolese state? What 
kind of development plan will be required to give a peaceful 
Congo a chance at stability? How can a coherent, long-term DRC 
policy strengthen state capacity and curtail criminal 
opportunities within the DRC's borders? Even if the very 
ambitious goal of a national election is achieved in the Congo, 
how can we continue to work to shore up stability? As 
experience has shown, perhaps most recently in Nigeria, 
elections are not a finish line for policy aimed at improved 
governance, and they are certainly not guarantors of stability.
    Finally and critically, is the United States currently 
devoting the appropriate level of attention and resources to 
this complex conflict at the heart of Africa? Are we making 
this urgent problem a priority and maximizing U.S. leverage to 
help stabilize the situation?
    In late 1999, I traveled to 10 countries, including Angola, 
Namibia, South Africa, Zimbabwe, Zambia, Rwanda, Uganda, and 
Congo itself, in the company of then-U.S. Ambassador to the 
United Nations, Richard Holbrooke. We worked together to try to 
get the parties to the conflict to agree on a facilitator for 
the crucially important inter-Congolese dialog. The trip and 
the process of trying to unravel the situation and understand 
all of the interests at stake was unforgettable. And ever 
since, I have been trying to follow developments in Congo with 
deep concern, and I feel that calling attention to this 
situation is critically important. The spillover effects, 
criminal and otherwise, of sustained chaos in Congo are simply 
too serious to ignore.
    I want to add one additional point. I am concerned that by 
focusing on the serious problem of weak and failing states in 
sub-Saharan Africa, the subcommittee, to a little degree, runs 
the risk of painting an inaccurately gloomy portrait of the 
region. I wish there were time to run a series of counterpoint 
hearings, focusing on the promise of states like Senegal, 
Ghana, Mozambique, and Botswana, and the ways in which the 
United States can help support all of the positive developments 
in these countries, as this is an equally important part of our 
policy in Africa. That is certainly a topic that I will 
continue to focus on in all my interactions with my colleagues 
and with the administration.
    I also want to make it clear that even the difficult cases 
that are the focus of the current series are not hopeless 
situations. They are simply tough ones. In several cases, and 
in the case of Congo in particular, I actually think that there 
is a real opportunity for the United States to make a 
significant difference in terms of regional peace and stability 
and in terms of shutting down criminal networks and therefore 
bolstering our own security. And today I expect that we will 
hear more about some of the courageous and energetic Congolese 
individuals and organizations working to build a better future, 
living proof that there is reason to hope that Congo can 
recover and one day prosper.
    So, I look forward to the testimony today, and when Senator 
Frist, the ranking member of the subcommittee, arrives, as he 
certainly intends to do, I will ask him to make some remarks.
    I also want to mention that my friend Howard Wolpe is here 
in the audience. He traveled with us for part of that exciting 
trip in Africa. And I certainly do not mean to embarrass him, 
but it is good to see him. His knowledge and his expertise in 
this area were incredible, and it is good to see you. Thank 
you.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I want to thank all of the witnesses for being here to testify at 
this hearing on ``Weak States in Africa--U.S. Policy Options in the 
Democratic Republic of the Congo.'' This is the second in a series of 
hearings that share two primary aims. First, the subcommittee hopes to 
examine those characteristics of Africa's weakest states that draw 
international criminal activity to the region, focusing on issues such 
as illicit air transport networks and trafficking in arms, gem stones, 
and even people. Second, the subcommittee seeks to identify long-term 
policy options for changing the context in these states such that they 
are no longer as appealing to criminal opportunists. Broadly, I am 
hoping that we can apply some of the lessons that have been drawn from 
South Asia recently to the sub-Saharan context--lessons about the very 
serious consequences of disengagement and neglect while states collapse 
and institutions falter.
    We began with a very useful hearing on Somalia, and today we 
proceed to the Democratic Republic of the Congo. Of course the 
situations of Somalia and the DRC are dramatically different. I hope 
that this subcommittee will go on to look at Liberia in this same broad 
context, and there too, the situation on the ground is distinct from 
other cases. In fact, the particulars of each case are part of the 
point I hope to make--we need to craft careful, nuanced, and long-term 
policies tailored to each situation if we are to avoid the prospect of 
sustained state failure.
    Today I hope that we will hear from our witnesses about the 
prospects for international criminal activity to flourish in Central 
Africa, and the relationship between this activity and Congo's 
instability. We are also interested in a status report on the 
implementation of the Lusaka Accord, the MONUC mission, and the inter-
Congolese dialog. What are the current obstacles to progress, and what 
steps can the United States take to help address those problems? 
Finally and most importantly, we are seeking prescriptions for a long-
term policy toward the DRC. What steps can the United States take to 
bolster a peaceful Congolese state? What kind of development plan will 
be required to give a peaceful Congo a chance at stability? How can a 
coherent, long-term DRC policy strengthen state capacity and curtail 
criminal opportunities within the DRC's borders? Even if the very 
ambitious goal of a national election is achieved in the Congo, how can 
we continue to work to shore up stability? As experience has shown--
perhaps most recently in Nigeria--elections are not a finish line for 
policy aimed at improved governance, and they are certainly not 
guarantors of stability. Finally, and critically, is the United States 
currently devoting the appropriate level of attention and resources to 
this complex conflict at the heart of Africa? Are we making this urgent 
problem a priority and maximizing U.S. leverage to help stabilize the 
situation?
    In late 1999, I traveled to ten countries--including Angola, 
Namibia, South Africa, Zimbabwe, Zambia, Rwanda, Uganda, and Congo 
itself--in the company of then-U.S. Ambassador to the United Nations, 
Richard Holbrooke. We worked together to try to get the parties to the 
conflict to agree on a facilitator for the crucially important inter-
Congolese dialog. The trip, and the process of trying to unravel the 
situation and understand all of the interests at stake, was 
unforgettable. Ever since, I have been following developments in Congo 
with deep concern, and I feel that calling attention to this situation 
is critically important. The spill-over effects, criminal and 
otherwise, of sustained chaos in Congo are simply too serious to be 
ignored.
    I want to add one additional point. I am concerned that by focusing 
on the serious problem of weak and failing states in sub-Saharan 
Africa, the subcommittee runs the risk of painting an inaccurately 
gloomy portrait of the region. I wish that there were time to run a 
series of counterpoint hearings, focusing on the promise of states like 
Senegal, Ghana, Mozambique and Botswana, and the ways in which the 
United States can help support all of the positive developments in 
these countries, as this is an equally important part of our policy in 
Africa. That is certainly a topic that I will continue to focus on in 
all of my interactions with my colleagues and with the administration.
    I also want to make it clear that even the difficult cases that are 
the focus of the current series are not hopeless situations. They are 
simply tough ones. In several cases, and in the case of Congo in 
particular, I actually think that there is a real opportunity for the 
United States to make a significant difference in terms of regional 
peace and stability--and in terms of shutting down criminal networks 
and therefore bolstering our own security. And today I expect that we 
will hear more about some of the courageous and energetic Congolese 
individuals and organizations working-to build a better future--living 
proof that there is reason to hope that Congo can recover and one day 
prosper.
    I look forward to the testimony today.

    Senator Feingold. Let me begin by hearing from our first 
panel from Mr. William Bellamy, currently the Acting Assistant 
Secretary of State for African Affairs, as Walter Kansteiner is 
away. Mr. Bellamy, thank you, and you may proceed.

  STATEMENT OF WILLIAM BELLAMY, ACTING ASSISTANT SECRETARY OF 
STATE FOR AFRICAN AFFAIRS,\1\ DEPARTMENT OF STATE, WASHINGTON, 
                               DC
---------------------------------------------------------------------------

    \1\ Mr. Bellamy is Principal Deputy Assistant Secretary for African 
Affairs. He was Acting Assistant Secretary during the absence of 
Assistant Secretary Walter Kansteiner.
---------------------------------------------------------------------------
    Mr. Bellamy. Chairman Feingold, members of the committee, 
thank you for inviting me to testify today on the situation in 
the Democratic Republic of the Congo, which is the scene of a 
complex and devastating war involving six nations, two 
Congolese rebel groups, local Congolese militias, and Rwandan 
and Burundian Hutu rebels.
    The war has produced a major humanitarian crisis with some 
2 million people displaced and an estimated 2.5 million deaths 
from war-related causes. Government and rebel troops have 
perpetrated gross abuses of human rights. The conflict has 
generated large refugee flows into neighboring countries, such 
as the Republic of Congo, and diverted scarce economic 
resources to military expenditures, particularly in the Congo, 
Rwanda, Uganda, and Zimbabwe.
    The United States supports implementation of the Lusaka 
cease-fire agreement as the best means to achieve a just and 
stable peace in the region. The Lusaka agreement calls for a 
cease-fire, a national dialog leading to a new political 
dispensation, the disarmament and repatriation of armed groups 
in the Congo, and U.N. monitoring of the withdrawal of foreign 
troops.
    Mr. Chairman, we are working with the parties to the Lusaka 
cease-fire agreement, the United Nations, the Organization of 
African Unity, our European allies, and key regional leaders to 
help implement this agreement.
    President Bush met with President Kabila last fall to 
discuss ways to end the conflict. Secretary Powell has urged 
implementation of the agreement in meetings with Presidents 
Kabila and Kagame and other regional leaders.
    I was in Kinshasa 2 weeks ago and reiterated to the 
Congolese Government the importance of finding a negotiated 
settlement to the conflict. Walter Kansteiner, Assistant 
Secretary for African Affairs, visited the Congo and Rwanda in 
January. In his discussions with Congolese President Kabila and 
Rwandan President Kagame, Mr. Kansteiner also urged both 
leaders to support the Lusaka cease-fire agreement. We will 
continue to make peace in the Great Lakes region a top priority 
of the administration.
    Of the non-Congolese signatories to the agreement, only 
Rwanda and Zimbabwe retain significant numbers of forces in the 
Congo. A cease-fire among the signatories has mostly held, 
except in the eastern Congo. Fighting in the east involves, 
among others, Rwandan-backed Congolese rebels, local Congolese 
militia, the Rwandan Army, and Congolese-supported Burundian 
Hutu rebels.
    We have provided $2 million for the Joint Military 
Commission, a commission of the signatories to the Lusaka 
agreement, whose duties are to resolve military problems 
connected with the agreement, including cease-fire violations. 
We intend to notify Congress shortly that we will provide 
additional assistance in fiscal year 2002.
    The inter-Congolese dialog is currently taking place in Sun 
City, South Africa. The participants include all the Congolese 
signatories to the Lusaka agreement, as well as representatives 
of Congolese opposition political parties and civil society. 
The United States has provided $1.5 million to support the work 
of former Botswanan President Masire, who is the facilitator of 
the dialog.
    We hope that when the meeting ends in Sun City this week, 
the participants will have charted a way forward to further 
negotiations and to a comprehensive and enduring settlement.
    With regard to demobilization and disarmament, progress has 
been limited. We believe that a broad-based agreement between 
Presidents Kagame and Kabila will be necessary before any 
general demobilization and disarmament can occur. The Congolese 
Government continues to give some supplies to the Rwandan 
rebels and to anti-Rwandan militias, while the Rwandan 
Government continues its support to Congolese rebels in the 
eastern Congo.
    In February 2000, the United Nations Security Council 
established the U.N. mission to the Congo, MONUC. Former 
President Laurent Kabila consistently blocked deployment of 
MONUC. Following his father's assassination in January, Joseph 
Kabila reversed this policy. MONUC now has deployed 3,688 
observers in the Congo and has effectively monitored the cease-
fire in accordance with its mandate.
    In his February 15 report to the Security Council, 
Secretary General Kofi Annan recommended an increase in MONUC's 
troop ceiling from 5,537 to 6,387. The Secretary General said 
this increase is needed to support MONUC's deployment to 
Kisangani and Kindu in advance of a voluntary demobilization 
and disarmament program.
    At this time, we do not see the need for an increase in the 
troop ceiling. However, if events on the ground should move 
forward, a more robust MONUC could be useful.
    Mr. Chairman, in terms of humanitarian and development 
assistance to the Congo, the United States provided in fiscal 
year 2001 about $98 million in assistance. That included $6 
million of developmental assistance. This aid was mostly 
directed at emergency food relief, including operation of 
humanitarian aircraft outside areas of government control, food 
security programs, and improved health services. We have also 
provided money for programs targeting refugees and internally 
displaced persons in the DRC.
    We expect total U.S. assistance in fiscal year 2002 to the 
DRC to be about the same order of magnitude as last year. 
USAID's development assistance for fiscal year 2002 is 
estimated at about $21 million. Projects will concentrate on 
improving primary health care services in rural areas, 
increasing immunization coverage, combating HIV/AIDS and 
malaria, enhancing food security, promoting a peaceful 
transition process, and protecting the environment.
    With regard to international crime and terrorism in the 
DRC, we do not have hard evidence of links between groups 
operating out of the Congo and international terrorism. 
However, both the war and the lack of an effective central 
government create an environment that is conducive to 
international crime. The Congo is rife in illegal trade in 
mineral wealth and arms. The foreign armies and rebel groups in 
the Congo steal diamonds, coltan, gold, and timber and use the 
proceeds to finance the war and line the pockets of government 
officials and army officers.
    Moreover, the Congolese Government grants concessions to 
its allies, most notably Zimbabwe, in order to win their 
military support. The Congolese Government has conceded to the 
Zimbabweans the right to set up commercial ventures to explore, 
research, exploit, and market mineral, timber, and other 
resources. Zimbabwean troops provide the military muscle to 
secure these commercial activities. Top Congolese officials 
also have personal financial interests in these concessions to 
the Zimbabweans.
    In summary, let me just reiterate, Mr. Chairman, that the 
United States has a strong interest in bringing a lasting peace 
to the Congo. We must use our influence to guide the 
belligerents to a political agreement. The Congolese people 
deserve stability, good government, and economic prosperity. I 
believe they have the ability to achieve this, and the 
international community has a duty to help them do so.
    Thank you very much.
    [The prepared statement of Mr. Bellamy follows:]

   Prepared Statement of William Bellamy, Principal Deputy Assistant 
                 Secretary of State for African Affairs

                              INTRODUCTION

    Chairman Feingold, Members of the Committee:
    Thank you for inviting me to testify today on the situation in the 
Democratic Republic of the Congo (DRC), the scene of a complex and 
devastating war involving six nations, two Congolese rebel groups, 
local Congolese militias, and Rwandan and Burundian Hutu rebels. The 
war has caused a tremendous loss of life, property, and economic 
development opportunities in a potentially rich country.
    The central African conflict has produced a major humanitarian 
crisis with some two million people displaced and an estimated 2.5 
million deaths from war-related causes. Government and rebel troops 
have perpetrated gross abuses of human rights. The conflict has 
generated large refugee flows into neighboring countries, such as the 
Republic of Congo, and diverted scarce economic resources to military 
expenditures, particularly in the Congo, Rwanda, Uganda and Zimbabwe.
                             u.s. interests

    U.S. interests are to:

          1) End the conflict;
          2) Restore stability in the Great Lakes region;
          3) Ameliorate the humanitarian and HIV/AIDS crises;
          4) Promote a democratic government and respect for human 
        rights;
          5) Promote economic development and reform.

                    THE LUSAKA CEASE-FIRE AGREEMENT

    The U.S. supports implementation of the Lusaka Cease-Fire Agreement 
as the best means to achieve a just and stable peace in the region. The 
Agreement--signed in 1999 by the Congo, Rwanda, Angola, Namibia, 
Rwanda, Zimbabwe, and the Congolese rebel groups known as the Comgolese 
Liberation Movement (MLC) and the Congolese Rally for Democracy (RCD)--
provides a framework for resolution of the DRC conflict. It calls for a 
cease-fire, a national dialogue leading to a new political 
dispensation, the disarmament and repatriation of armed groups in the 
Congo, and UN monitoring of the withdrawal of foreign troops.
    Mr. Chairman, we are working with the parties to the Lusaka Cease-
Fire Agreement, the United Nations, the Organization of African Unity, 
our European allies and key regional leaders to help implement this 
agreement.
    President Bush met with President Kabila last fall to discuss ways 
to end the conflict. Secretary Powell has urged implementation of the 
agreement in meetings with Presidents Kabila and Kagame and other 
regional leaders.
    I was in Kinshasa two weeks ago and reiterated to the Congolese 
government the importance of finding a negotiated settlement to the 
conflict. Walter Kansteiner, Assistant Secretary for African Affairs, 
visited the Congo and Rwanda in January. In his discussions with 
Congolese President Joseph Kabila and Rwandan President Paul Kagame, 
Mr. Kansteiner also urged both leaders to support the Lusaka Cease-Fire 
Agreement. We will continue to make peace in the Great Lakes region a 
top priority for the Administration.

Cease-Fire
    Of the non-Congolese signatories, only Rwanda and Zimbabwe retain 
significant numbers of forces in the Congo. A cease-fire among the 
signatories to the Lusaka Agreement has mostly held, except in eastern 
Congo. Fighting in the East involves, among others, Rwandan-backed 
Congolese rebels, Congolese-backed Rwandan rebels, local Congolese 
militia, the Rwandan Army, and Congolese supported Burundian Hutu 
rebels.
    We have provided two million dollars for the Joint Military 
Commission, a commission of the signatories to the Lusaka Agreement 
whose duties are to resolve military problems connected with the 
Agreement, including cease-fire violations. We intend to notify 
Congress shortly that we will provide additional assistance in FY '02.

The Inter-Congolese Dialogue
    The Inter-Congolese Dialogue is currently taking place in Sun City, 
South Africa. The participants include all the Congolese signatories to 
the Lusaka agreement, as well as representatives of Congolese 
opposition political parties and Congolese civil society. The United 
States has provided $1.5 million to support the work of former 
Botswanan President Ketumile Masire, the facilitator of the Dialogue.
    We are pleased that the talks in Sun City have occurred and hope 
that when the meeting ends this week, the participants will have 
charted the way forward to further negotiations and to a comprehensive 
and enduring political settlement.
    At the same time, we believe that to end the war, meaningful 
demobilization and disarmament of militias and rebel groups--most 
importantly of Rwandan Hutu rebels--and a cessation of foreign support 
to Congolese rebels must occur.

Demobilization and Disarmament
    Progress on demobilization and disarmament has been limited. We 
believe that a broad-based agreement between Presidents Kagame and 
Kabila will be necessary before any general demobilization and 
disarmament can occur. The Congolese Government continues to give some 
supplies to the Rwandan rebels and the Congolese Mai-Mai militia, while 
the Rwandan Government continues its support to Congolese rebels and 
its occupation of most of Eastern Congo. Both countries are reluctant 
to make the first move in fear that the other threatens their national 
security.

The UN Observer Mission for the Congo
    The UN Security Council established in February 2000 a United 
Nations Mission in the Congo (MONUC). Former President Laurent Kabila 
consistently blocked deployment of MONUC. Following his father's 
assassination in January, Joseph Kabila reversed this policy. MONUC has 
now deployed 3,688 observers in the Congo and has effectively monitored 
the cease-fire line in accordance with its mandate.
    In his February 15 report to the Security Council, Secretary 
General Kofi Annan recommended an increase in MONUC's troop ceiling 
from 5,537 to 6,387. The Secretary General said this increase is needed 
to support MONUC's deployment to Kisangani and Kindu in advance of a 
voluntary demobilization and disarmament program.
    At this time we do not see the need for an increase in the troop 
ceiling. However, if events on the ground should move forward, a more 
robust MONUC could be useful. For example, an agreement among the 
Congolese parties over an interim government or a complete or partial 
withdrawal of foreign troops, could yield opportunities for 
demobilization and disarmament of irregular forces and the need for 
monitoring the withdrawal of foreign forces in larger areas of the 
Congo.

                        HUMANITARIAN ASSISTANCE

    The United States provided about $98 million in humanitarian 
assistance to the Congo in FY 2001. This aid was mostly directed at 
emergency food relief, including operation of humanitarian aircraft 
outside areas of government control, food security programs, and 
improving health services. We have also provided money for programs 
targeting refugees and internally displaced persons in the DRC. We 
expect total U.S. assistance in FY02 for the DRC to be about the same 
as last year.
    USAID's Development Assistance for FY 2002 is estimated at $21 
million. Projects will concentrate on improving primary health care 
services in rural areas, increasing immunization coverage, combating 
HIV/AIDS and malaria, enhancing food security, promoting a peaceful 
transition process, and protecting the environment.
    The cease-fire has created an increased opportunity for 
humanitarian assistance to reach previously isolated populations. 
Nonetheless, the war continues to restrict aid organizations and normal 
economic activity. As a result, the condition of Congolese civilians, 
especially in the East, remains truly horrific.

              INTERNATIONAL CRIME AND TERRORISM IN THE DRC

    We do not have any hard evidence of links between groups operating 
out of the Congo and international terrorism. However, the United 
States has an interest in a just and strong Congolese Government that 
can contribute to the war on terrorism.
    Both the war and the lack of an effective central government create 
an environment that is conducive to international crime. The Congo is 
rife in illegal trade in mineral wealth and arms. The foreign armies 
and rebel groups in the Congo steal diamonds, coltan, gold, and timber 
and use the proceeds to finance the war and line the pockets of 
government officials and army officers.
    Moreover, the Congolese Government grants concessions to its 
allies--most notably Zimbabwe--in order to win their military support. 
The Congolese Government has conceded to the Zimbabweans the right to 
set up commercial ventures to explore, research, exploit, and market 
mineral, timber, and other resources. Zimbabwean troops provide the 
military muscle to secure these commercial activities. Top Congolese 
officials also have personal financial interests in these concessions 
to the Zimbabweans.
    The Congolese Government lacks the ability to control trade in 
these minerals or to set up a legal buying system that offers 
attractive prices to buyers. As a result, dealers take the goods over 
international borders, wherever they perceive they will get the best 
price. The Congolese Government liberalized the legal diamond trade in 
April 2001, which may help steer more diamonds through legal channels. 
Nonetheless, smuggling in diamonds and other Congolese natural 
resources will continue to be a problem.

                          A FEW FINAL THOUGHTS

    In summary, let me just reiterate, Mr. Chairman, that the United 
States has a strong interest in bringing a lasting peace to the Congo. 
We must use our influence to guide the belligerents to a political 
agreement. The Congolese people deserve stability, good governance, and 
economic prosperity. I believe they have the ability to achieve this, 
and the international community has a duty to help them do so.

    Senator Feingold. Thank you very much, Mr. Bellamy. I will 
begin with some questions for you.
    At a recent hearing that this subcommittee held regarding 
Somalia, I was really kind of appalled to discover how little 
we know about the situation on the ground there and the key 
players. It is always difficult to gather solid intelligence 
about a situation that is so insecure and remote. You sort of 
alluded to this already in your remarks, but I would like you 
to say a little bit more, to the extent that you can in an open 
format, about the degree to which the United States really has 
an understanding of what is going on inside Congo's borders.
    Mr. Bellamy. Mr. Chairman, you are quite correct in 
pointing out the difficulty of developing reliable 
intelligence, reliable information from an area as vast and 
conflicted as the Congo. I think it is safe to say that we have 
a number of means at our disposal. We have a very capable and a 
very active embassy on the ground in Kinshasa, headed by a 
senior and experienced ambassador. Our embassy personnel, to 
the extent that they can, travel outside Kinshasa, and we have 
an active program in country of information gathering.
    But clearly, there are still large gaps in our data base. 
We have only an imperfect knowledge of the military situation 
in the remote north and eastern areas of the Congo. We have 
spotty coverage of those areas, and we are often forced to 
rely, particularly when it comes to assessing potential 
terrorist and criminal threats, on secondhand reports. So, it 
is not a completely satisfactory situation from an information 
gathering standpoint.
    Senator Feingold. Thank you.
    The Army for the Liberation of Rwanda, or AliR, is 
designated on the terrorist exclusion list of the United States 
Patriot Act. Is the Congolese Government in Kinshasa providing 
support to this organization? And if so, what are the 
implications of that activity for our Government's relationship 
with the Kabila Government?
    Mr. Bellamy. The AliR organization is a matter of great 
concern to us, along with a number of other armed formations 
fighting in the eastern Congo. There have been credible reports 
of government support to those organizations, including AliR. 
We have, on a number of occasions, made it very clear to the 
government in Kinshasa that that sort of support ought to 
cease. We think that, in the context of an overall 
understanding or settlement between President Kabila, the 
government in Kinshasa, and President Kagame and the government 
in Rwanda, the issue of support to AliR and other armed 
movements has to be very much at the top of the agenda.
    Senator Feingold. Thank you.
    Sometimes press reports have surfaced about a North Korean 
presence in Congo. To the extent you can, what can you tell us 
about those reports in this setting?
    Mr. Bellamy. To be quite honest, Mr. Chairman, I do not 
have information with me concerning a North Korean presence in 
the Congo. I do not, in fact, recall specific reports, but I 
will be happy to look into that.
    [The following information was subsequently supplied.]

                   NORTH KOREA PRESENCE IN THE CONGO

    Chairman Feingold, at the subcommittee's hearing on the Congo on 
April 9, you noted press reports about a North Korean presence in the 
Congo and asked me to comment on those reports. I said I did not recall 
specific reports concerning North Koreans in the Congo, but promised to 
research this issue further. I have since looked into the issue. I am 
prepared to discuss details with you and other subcommittee members in 
closed session.

    Senator Feingold. Thank you.
    Let me return to the previous question for a second and ask 
you if Mr. Kabila has responded to our exhortations to stop 
support to AliR.
    Mr. Bellamy. President Kabila, without necessarily 
acknowledging that the government in Kinshasa may be supplying 
rebel groups in the east, has on a number of occasions 
expressed an interest in sponsoring investigations of alleged 
supply to rebel formations in the east, suggesting that a 
commission be established by the United Nations for this 
purpose. He has been, I believe, responsive when we have 
discussed with him the need to end any such assistance, should 
it be occurring in the context of a settlement with Rwanda.
    Senator Feingold. Let us talk a bit about the conflict 
diamonds problem. What role do the so-called conflict diamonds 
play in the DRC conflict and what steps is the United States 
taking to address the problem in Congo?
    Also, specifically I would like you to comment on reports 
that al-Qaeda and other terrorist organizations have used 
diamonds purchased in DRC to hide assets and increase their 
resource base. We have been tracking reports in this regard, as 
well as reports about Sierra Leone and other places. It would 
be very helpful if you could comment on that.
    Mr. Bellamy. Mr. Chairman, there is no doubt whatsoever 
that conflict diamonds have played a large role in fueling this 
conflict. Diamonds are perhaps the most spectacular but not the 
only resources that are being stripped from Congo. I think it 
is fair to say that we are never going to be able to break this 
cycle of arms being used to seize resources, which then are 
being used to purchase more arms, which are being used to seize 
more resources until we are able to bring peace to the country 
and enable the government in Kinshasa to extend its effective 
control over all of its territory.
    With regard to al-Qaeda, we do not have specific 
indications, Mr. Chairman, of al-Qaeda operating in the Congo 
or profiting from diamonds being drawn out of the Congo. I 
cannot exclude that as a hypothesis or as a possibility, but I 
do not have specific indications that that sort of activity is 
occurring.
    Senator Feingold. Let me ask you again. Perhaps you 
answered it. But what exact steps is the United States taking 
to address the conflict diamonds problem in Congo?
    Mr. Bellamy. Well, aside from the larger goal of working to 
promote a peaceful settlement and to end the conflict in the 
Congo, which is the ultimate solution, we are also very 
actively supporting the Kimberley process, a worldwide process 
whereby certificates of origin will be issued and the diamond 
trade will be better regulated at its source.
    Senator Feingold. Thank you.
    You mentioned arms. I wonder if you can comment on arms 
trafficking in Congo. I took notice of the recent press reports 
regarding Victor Bout's arms trafficking network and its role 
in the diamonds for arms transactions in the Congo. Could you 
say a little bit more about how these networks operate and is 
there any capacity to monitor or track their activities?
    Mr. Bellamy. Mr. Chairman, it is clear to us and I think 
clear to most observers in the Congo, that the Congo is, 
indeed, a very fertile area for illicit arms trafficking. You 
mentioned Victor Bout. He is well known and perhaps the most 
notorious of the arms traffickers operating in Central Africa. 
No doubt there are others as well.
    Yes, we do have some capacity for tracking the movements 
and the activities of some of these arms traffickers. We rely 
heavily on information sharing with other governments, with 
friendly governments, who share our concerns, and where it is 
possible, we seek to undertake or encourage others to undertake 
law enforcement actions, where laws have been broken, to 
curtail this form of activity. It is not an easy intelligence 
target, but we do devote resources to it. We do not have a 
complete picture, but we have enough of a picture to know that 
this is a major problem in the Congo.
    Senator Feingold. Of course, one of the problems with this 
kind of an issue is the long borders not only of Congo, but of 
so many of the African countries. Of course, we are having the 
same problems here in the United States.
    Mr. Bellamy. We do.
    Senator Feingold. So, this is a subject that comes up much 
more frequently than it has in the past, but in particular, 
considering the Congo, what kind of border security is possible 
for a vast, centrally located country like Congo, and what, if 
anything, can the international community do to help?
    Mr. Bellamy. Well, obviously border security in an area as 
vast as the DRC is at this point only an aspiration or a hope 
or an ambition.
    The first thing that has to happen clearly is that the 
Congo and its neighbors have to come to a mutual understanding 
and recognition that they are all better off with secure 
borders than they are allowing groups to operate across those 
borders and allowing those borders to be porous. There needs to 
be a clear regional understanding about the sanctity and the 
importance of borders.
    But beyond that, the government in Kinshasa needs to be 
able to develop the means to extend control over its territory. 
And part of the answer to that question, quite frankly, Mr. 
Chairman, probably not in the too far distant future, will be 
the eventual formation of an army in the Congo. President 
Kabila is handicapped to a certain extent by the lack of a 
professional or competent army or armed forces, hence the 
requirement that he rely on foreign forces or on ill-
disciplined and poorly trained and often unpaid militia and 
rebel groups. So, at some point in this equation, it will be 
important that a professional army be formed in the Congo that 
is capable of making progress in terms of defending the 
borders.
    Senator Feingold. Mr. Bellamy, you of course have talked 
about the fact that the Lusaka Accord calls for the withdrawal 
of all foreign forces from Congo. I believe you said that has 
been achieved except with regard to Zimbabwe and Rwanda. Is 
that what you said? In large part?
    Mr. Bellamy. In large part. There remain Angolan forces. A 
small number of Angolan forces are still deployed, I believe, 
in the Congo. There are some Ugandan forces that are still 
there. But both of those nations have withdrawn sizable 
contingents from the Congo. The large foreign contingents 
remaining are Rwandan and Zimbabwean.
    Senator Feingold. In those two cases, is the potential 
domestic problem presented by demobilization a significant 
factor in dissuading them from withdrawing their forces, or 
would you not rank that as a significant reason?
    Mr. Bellamy. Mr. Chairman, it may well be. It is not a 
suitable excuse, clearly, for keeping their forces in the 
Congo, but it is often alleged that returning those forces 
either to Rwanda or Zimbabwe could pose some political problems 
for those governments' leadership. But I think that we, in 
terms of pursuing our policy, simply have to insist that that 
is obviously not an adequate reason for maintaining their 
forces in the Congo.
    Senator Feingold. Have we offered to help them with 
demobilization? Have we thought about that?
    Mr. Bellamy. The demobilization issue, to be quite honest, 
has not to this point focused on demobilizing regular troops. 
Zimbabwe, for its part, has not proposed demobilizing any of 
its regular armed forces that are present in Congo. In the 
Rwandan case, I do not believe this issue has specifically come 
up, Mr. Chairman, of actually demobilizing regular Rwandan 
forces who might be returning from the Congo. But it is an idea 
certainly that has some merit and may be worth pursuing.
    Senator Feingold. I hope it will be, as appropriate, 
pursued so that we can find out if it is merely a justification 
that is not the real story or whether we really could 
facilitate that.
    The Lusaka agreement calls for the disarmament of the armed 
factions or negative forces operating in the DRC. What has been 
done in that regard and what role will MONUC play in the 
disarmament of negative forces?
    Mr. Bellamy. MONUC's role, Mr. Chairman, is to facilitate 
and to assist the parties in achieving disarmament and 
demobilization. MONUC is charged with drawing up a game plan 
for disarmament and demobilization, and I understand that that 
game plan, that report, is in the process of being prepared and 
should be ready shortly. MONUC has undertaken a number of 
forward deployments to be in a position to assist with 
demobilization and disarmament, but the reality is that there 
has not been, up to this point, sufficient political will at 
the higher levels in our view to begin to spark a serious 
disarmament and demobilization process.
    We have a particular case of 1,500 Hutu fighters, ex-
Rwandan armed forces or Interahamwe, who are cantoned in the 
town of Kamina. This is an obvious target group for 
demobilization and eventual repatriation to Rwanda. Some 
considerable effort has been spent in trying to focus on that 
group as an initial tranche of returnees to Rwanda to 
demonstrate that, in fact, disarmament and demobilization can 
work.
    Senator Feingold. Is that just an example of the efforts 
that are being made, or are there efforts being made in general 
to achieve this? Is there really a plan for getting this done?
    Mr. Bellamy. The U.N. is working on a plan for 
demobilization and disarmament. In Rwanda itself, which will be 
the destination of the largest number of disarmed fighters, 
there is a repatriation program underway. There clearly is a 
willingness on the part of Rwandan Government to accept 
returned fighters and to, in one way or another, reintegrate 
them into Rwandan society.
    Now, this has happened largely as a result of Rwandan 
forces surrendering, not through an organized disarmament and 
demobilization program, but by soldiers who have surrendered, 
who have laid down their arms involuntarily or otherwise gone 
back to Rwanda. They have gone through a reintegration process 
that suggests to us that Rwanda is willing to undertake 
reintegration if the soldiers can be returned to them.
    Senator Feingold. That helps me with those who have shown 
some willingness to voluntarily do this.
    What is the plan for those who are not voluntarily willing 
to disarm?
    Mr. Bellamy. I think, Mr. Chairman, our plan has to focus 
on generating the political understanding and will at the 
senior levels, the political will at the senior levels to begin 
a real process of disarmament. We do not expect the fighters in 
the field to voluntarily lay down their weapons or to come in 
from the bush without clear indications from their leaders that 
this is what is expected of them and this is what they want 
them to do.
    So, the answer I believe to your question, Mr. Chairman, is 
that is a redoubling of our efforts principally with President 
Kabila and President Kagame to encourage them to embark on 
perhaps a series of mutually reinforcing confidence building 
measures, reciprocal gestures, whereby the two parties will 
work toward a more comprehensive disarmament and demobilization 
and repatriation program.
    Senator Feingold. Thank you for that answer.
    I want to return once again to the question of the Kabila 
government's relationship to AliR. Has the Kabila government 
shown any willingness to turn over individuals wanted by the 
ICTR, and has the Kabila government been asked to do so?
    Mr. Bellamy. Speaking just on behalf of the U.S. 
Government--and I cannot speak on behalf of the U.N. or others 
in the conversations they may have had with President Kabila--
we have discussed these issues with President Kabila. While I 
think it is correct to say he has not formally agreed to hand 
over individuals to the ICTR, and we have not made detailed or 
formal requests, I believe there is a willingness and a 
readiness on his part to consider taking steps along these 
lines. But, again, this likely would be in the context of 
perhaps a series of confidence building measures vis-a-vis 
Rwanda.
    Senator Feingold. I appreciate that. That is going to be an 
ongoing interest of mine. I think it is consistent with 
policies that our President has indicated that I think should 
apply in this situation as well.
    Obviously, working on Africa, one of the challenging--it is 
sometimes fascinating, but always challenging--things is the 
interrelationship of the political situations in other 
countries to the country you are focusing on. So, I am 
wondering if you could talk a little bit about the effect, if 
any, of a couple of the recent developments, one being the 
cease-fire agreement and peace process in Angola. What effect 
will that have in the situation in Congo? And will Zimbabwe's 
recent election affect Harare's policy in Congo?
    Mr. Bellamy. Mr. Chairman, it is clear that one of the 
major reasons, if not the major reason, for Angola's 
involvement in Congo was its concern that the Congo was being 
used by UNITA as a staging area and as a rear base. With the 
cease-fire process gathering momentum and with most of the 
indications in Angola being very positive, the main reason for 
Angola's involvement in the Congo is diminishing.
    At the same time, we recognize--and I think the U.N. and 
others in their reports on the Congo have recognized--that the 
Angolan role in Congo has been somewhat different than that 
than most of the other external players. We do not really see 
much evidence of Angolan exploitation of Congolese resources in 
the same way that this has occurred with the Zimbabwean and the 
Rwandan presence. We have also seen a willingness on the part 
of the Angolans to gradually draw down their forces. So, I 
think there is a real possibility that Angola may be headed 
toward a complete withdrawal in the Congo, although I cannot 
say for sure.
    It may also be that a continued Angolan presence in the 
Congo of one kind or another could play a positive and 
stabilizing role, given their behavior up to this point. I 
think it is important to keep an open mind on that score.
    With regard to the Zimbabwean presence, when I was in Congo 
a couple of weeks ago, we had credible reports that Zimbabwe 
was planning to withdraw about half its forces in the Congo. 
Now, we have had such reports before. They have turned out to 
be unfounded. There have been rotations of Zimbabwean forces 
but no large-scale drawdown.
    I do not believe that political events in Zimbabwe itself, 
including the failed election, are going to have an impact on 
the Zimbabwean deployments in the Congo. I think the 
determination is likely to be that Zimbabwean forces there are 
providing an important source of off-line revenue for the 
Government of Zimbabwe. Whatever calculations may be made in 
Harare about force levels in the Congo, I do not think it will 
be based on political events at home.
    Senator Feingold. Thank you for that answer.
    Many observers have suggested that one of the greatest 
obstacles to peace is the distrust between Joseph Kabila and 
Rwandan President Paul Kagame. What role can the United States 
play in terms of trying to build confidence between Kinshasa 
and Kigali?
    Mr. Bellamy. I think that observation, Mr. Chairman, is 
absolutely accurate. Shortly after he came into office after 
his father's assassination, Joseph Kabila visited the United 
States and met with Secretary Powell, President Kagame happened 
to be here at the same time as Kibila. The two leaders took the 
opportunity to meet here in the United States and they have met 
on subsequent occasions. But it is clear that there is not a 
good chemistry between these two leaders. They have not been 
able to reach a mutual understanding, much less an agreement on 
ways forward, to end this conflict.
    We have given some thought to this. We believe that that is 
a very important relationship in terms of breaking the current 
deadlock in the Congo. We think that there are a number of 
measures that can perhaps be put on the table, discussed, 
combined, and sequenced in the right way so that if the two 
were able to see perhaps a series of reciprocal confidence 
building measures, it might be possible to start a dialog and 
to generate some momentum. So, we are actively looking at ways 
that we can put some of these ideas on the table and see if we 
cannot draw the two leaders into a more productive discussion.
    Senator Feingold. I am pleased to hear that. I want to know 
what it will take to address Rwanda's security concerns and 
thereby eliminate the justification for the Rwandan presence in 
the Congo. In these conversations that you referred to, has the 
United States really received clear information from the Kagame 
government about their bottom line needs? And do you really 
think they intend to leave? And do you think we need to put 
more pressure on Rwanda?
    Mr. Bellamy. I think the government in Rwanda has always 
said that it will leave when its security concerns in the Congo 
are adequately addressed. It has always said too that it will 
be the sole determinant of when its security concerns have 
adequately been addressed. There are skeptics and critics of 
Rwanda that do not accept that. They believe that the Rwandans 
are there for other reasons and have other criteria.
    I think simply that it is time again to test both sides, 
and I think that there are a number of ways that that could 
probably be done.
    Senator Feingold. Very good. You have been patient in 
answering many questions. I have many more, but that was very 
helpful.
    Senator Frist is not going to be able to make it to the 
hearing, but I want to say very clearly that he has been 
incredibly devoted to these issues and has a strong interest 
and has put great time into it. He is involved in matters 
relating to the cloning debate, and frankly I am glad I am here 
rather than trying to deal with that.
    So, thank you very much, Mr. Bellamy.
    Mr. Bellamy. Thank you, Mr. Chairman.
    Senator Feingold. We will move to the next panel. Will the 
second panel please come forward? Thank you.
    We have an excellent panel here before us today. Ms. 
Fabienne Hara is the co-director of the Africa Program at the 
International Crisis Group. She is currently based in Brussels 
but previously worked for the ICG in Nairobi and Burundi. She 
previously served as the project director for the Great Lakes 
Project of the Council on Foreign Relations, Center for 
Preventative Action, and she has worked with Doctors Without 
Borders, the United Nations High Commissioner for Refugees, and 
the French Foreign Ministry.
    Mr. Learned Dees is currently program officer for Africa at 
the National Endowment for Democracy where he works to assess 
and monitor projects supporting nongovernmental organizations. 
Before coming to the endowment, Mr. Dees worked as a journalist 
in Africa filing stories for NPR, BBC, and VOA from Kinshasa. 
Earlier he served as a Peace Corps volunteer in rural Zaire.
    Ms. Anne Edgerton is an advocate with Refugees 
International for whom she has covered conflicts in the Horn as 
well as the Great Lakes region of Africa. She brings 10 years' 
experience in international nongovernmental organization 
management, as well as program management experience in 
international emergency coordination and humanitarian 
assistance in the Great Lakes.
    I want to thank all of you for being here today. What we 
will do is hear from all of the witnesses and then I will have 
an opportunity to ask you some questions. Ms. Hara, would you 
please begin with your testimony.

    STATEMENT OF FABIENNE HARA, AFRICA PROJECT CO-DIRECTOR, 
         INTERNATIONAL CRISIS GROUP, BRUSSELS, BELGIUM

    Ms. Hara. Thank you, Mr. Chairman, and thank you very much 
for inviting me here to testify on behalf of the International 
Crisis Group. I have just returned from Rwanda and Burundi. 
Over the 7 years that I have been working on Central Africa, I 
have lived there for 3 years, visited the Democratic Republic 
of Congo dozens of times, and met several times with President 
Joseph Kabila of the DRC and repeatedly with President Pierre 
Buyoya of Burundi. I am also in direct contact with most of the 
rebel groups in the region.
    After 4 years of war, the DRC has become one of Africa's 
most fertile grounds for criminal economic activities. It is a 
humanitarian catastrophe of staggering proportions, a 
distortion to the governments of the DRC's neighbors, and a 
major threat to African stability. At a time where the United 
States is so focused on the roots and effects of international 
disorder and terrorism, the DRC demands a much higher place on 
the U.S. agenda.
    The presence of armed insurgencies, including perpetrators 
of the Rwandan genocide, on the DRC's territory, has already 
led to two wars: the first in 1996 and 1997 that led to the 
overthrow of President Mobutu; the second which began in 1998 
and continues today. The result has been a 3\1/2\-year 
occupation of the DRC territory by six foreign armies, the 
partition of Congo into three separately administered 
territories, and the death of more than 2 million people, 
mostly civilians, from war, famine and disease.
    Despite the halt of the conventional war since the signing 
of the Lusaka cease-fire agreement in 1999, and a series of 
high level contacts since then, Angola, Zimbabwe, Rwanda, 
Uganda, and Burundi are still occupying the DRC and have so far 
failed to agree on a timeframe for their departure. Rwanda and 
Zimbabwe still have massive troop deployments in the DRC.
    In effect, the fighting has shifted to eastern Congo where 
Rwandan and Burundian Governments continue to battle their own 
rebels on Congolese soil and the Kinshasa Government continues 
to support those rebel groups. In the Kivus region of eastern 
Congo, military operations by the Rwandan Army, as well as 
attacks by Rwandan, Burundian, and Congolese armed groups, are 
currently being carried out. The Rwandan-backed rebel group, 
RCD-Goma [Congolese Rally for Democracy], recently launched an 
offensive on the town of Moliro. RCD-Goma and Rwandan troop 
movements in Katanga province have, in turn, put Zimbabwean and 
Angolan troops on alert. All these unsettling developments have 
resurrected the threat of a possible resumption of war. As a 
matter of fact, today MONUC reported that there is a high 
concentration of troops in Katanga.
    In the meantime, the war has contributed to the complete 
collapse of state authority across the DRC. This has led to the 
destruction of economic infrastructure and generated predatory 
behavior from the occupying armies and factions, as well as 
from regional and international corporations. The violence 
committed by multiple armed factions and the generalized 
communal division and hostility have encouraged the emergence 
of warlords and illegal trade networks of diamonds, minerals, 
arms, and drugs, as documented by the U.N. panel reports on the 
illegal exploitation of DRC natural resources.
    The bigger war has aggravated several local sub-conflicts, 
particularly in eastern Congo, leading to destruction of local 
authority, inter-ethnic killings, the fragmentation of rebel 
groups, and new tensions between Rwanda and Uganda. New local 
groups have recently challenged the RCD and the Rwandan 
occupation forces in the Kivus. As inter-ethnic fighting 
continues, the fragmentation of the country increases and there 
will be a need for local reconciliation processes parallel to 
any national agreement.
    Now, I am going to focus the rest of the presentation on 
the peace process.
    The Lusaka agreement, as was already mentioned, mandated a 
three-part interlocking process: disarming the non-Congolese 
armed groups, the withdrawal of foreign forces, and inter-
Congolese dialog. None of these steps is proceeding smoothly.
    The Rwanda Hutu militias remain a fundamental stumbling 
block to peace. All sides have acknowledged that they must be 
disarmed, demobilized, repatriated to Rwanda, reintegrated and 
resettled there or in a third country. To move the process 
forward, all the latest U.N. resolutions on the DRC conflict 
have mentioned the necessity of a direct dialog between 
President Kabila and Rwandan President Kagame. However, despite 
several meetings between the two Presidents, no agreement has 
been reached and there have been no institutional followup. The 
talks failed mainly because of the lack of trust and 
intransigence of the belligerents and the lack of a sustained, 
single mediation process between the two leadership. Rwanda 
still accuses the DRC of harboring and supporting the Hutu 
militias and refuses to withdraw until a new government is 
established that can disarm these groups. The DRC government 
has acknowledged the presence of the Hutu fighters on its 
territory, but has not been able to demonstrate that total 
support to these groups has stopped.
    The U.N. observer mission, MONUC, has 55 military observer 
teams deployed, but its so-called phase III deployment to the 
east in Kindu and Kisangani has been delayed mainly due to RCD-
Goma and Rwandan opposition. As a result, voluntary operations 
of disarmament have not yet started. MONUC has finally produced 
an assessment of the number and strength of armed groups, which 
is the first step to establishing DDRRR programs. Eventually 
the MONUC presence will include 2000 troops in the east for 
DDRRR and a deployment to fill the security gaps when 
Kisangani, the third largest city in the DRC, is demilitarized.
    On the political side, the inter-Congolese dialog is 
intended to prepare for a new political dispensation that would 
rebuild national Congolese institutions and create the 
conditions for restoration of full sovereignty and territorial 
integrity. The inter-Congolese dialog is currently taking place 
in Sun City in South Africa, but it is deadlocked. The first 
obstacle to progress is a dispute over the status of President 
Joseph Kabila and on the principles of a constitutional 
transition. The rebels and part of the civilian opposition, 
backed by Rwanda and Uganda, insist that a new President be 
appointed in Sun City for the transition period. President 
Kabila and his backers have agreed in principle to share power 
with the revels, but they would exempt the Presidency and key 
security institutions, and insist that the rebels first return 
territories under their control to the Kinshasa administration. 
The second contentious issue is the format of the security 
forces. The government proposes that the rebel armies be 
integrated in the Congolese Armed Forces, while the rebels want 
to see the creation of a completely new national army and claim 
its high command.
    The deadlock in the dialog can be explained by two factors: 
first, neither side has won the war and can impose a solution; 
and neither feels that its situation is hopeless and that it 
must now compromise. Second, the states that have intervened in 
the Congo have all unsatisfied political, security, and 
economic needs that have not been satisfied and they do not 
want to see a strong and legitimate regime emerge in Kinshasa, 
which could jeopardize these interests. Many neighboring 
governments have actually grown dependent on the economic 
benefits of their presence in the DRC, while the security 
concerns that began the conflict over Rwandan genocidaires have 
not been resolved.
    The scenario that is now emerging in Sun City is a source 
of concern. There seems to be a deal emerging between Kabila 
and one of the rebel groups, the MLC, the unarmed opposition 
and civil society. This deal would marginalize the RCD-Goma. 
There are already signs that RCD-Goma is splitting. If this 
deal materializes in isolation of the hard core of RCD-Goma and 
of Rwanda, then there are two risks. The first risk is that 
Rwanda will resume war in Katanga, and then the second risk is 
that the new government will bring a number of individuals 
together in a Mobutu type of regime.
    Because the stalemate is so dangerous for Africa as a 
whole, it is time for the U.S. Government to reverse its 
approach on the DRC. Rather than exclusively focusing on the 
needs of external actors, the starting point should be to make 
the Congolese state self-sustaining, giving the Congolese 
themselves the strength to better carry out their obligations 
to protect their own citizens and to ensure border security 
with the neighbor countries. This means again that Congo will 
have to be governed in a very different way than it has been. 
Both Mobutu and Laurent Kabila ruled with little interest in 
building domestic institutions and heavy reliance on foreign 
military support.
    First, in the short term, the U.S. Government should 
immediately consult with France, the U.K., Belgium, and South 
Africa and build support for a two-step process in order to 
make the inter-Congolese dialog successful.
    The first step should be to press the participants to 
produce a framework agreement on a transitional constitution 
and administrative reconstruction of the government, as well as 
a basic program for the transition period before the end of the 
Sun City session. The future transitional government must 
commit to the proper policing of its territory and the ban of 
all armed groups operating on DRC territory. Then the United 
States will need to press the key players to find an agreement 
on a government of national unity. The U.S. Government should 
put heavy pressure on all the foreign countries to start 
withdrawing as soon as the new transitional government is 
appointed and to publicly commit to support it.
    Second, the U.S. Government needs to take a leadership role 
in seeing that Rwanda and the DRC sustain their direct dialog 
and meet their commitments. President Kabila must be convinced 
to fulfill international obligations, allow the arrest of the 
key leaders of the Rwandan genocide, with assistance of his 
allies or third parties, and transfer them to the ICTR. At the 
same time, Rwanda should be pressured to come up with a 
concrete plan of withdrawal. The sides should reach an interim 
agreement on border security to allow withdrawal to proceed.
    Third, the United States should press for the appointment 
of a high profile U.N. representative to be charged with 
implementing the future Sun City agreement, coordinating 
regional and international action on DDRRR, and helping 
harmonize the strategies of donors and the international 
financial institutions for the reconstruction of the country. 
Up to now, no one has been in charge of the overall Lusaka 
process, and the lack of coordination has been a significant 
drag on progress.
    Fourth, the U.S. Government should work with the U.N. to 
prepare MONUC to become not just observers, but a genuine 
peacekeeping force throughout the territory to fill the gaps 
when a new Congolese Government is in place and foreign forces 
begin to withdraw. In parallel it should begin consultations 
with other nations on security sector reform.
    Finally, the United States could play a special role in 
reconstruction by helping establish a regulatory environment 
and codes of conduct for business in Congo in order to destroy 
the international channels for illicit trade and to establish a 
tax system that would benefit the reconstruction of the country 
and help give the central government a regular source of 
income.
    The deadly stalemate in the DRC risks turning the country 
into a no-man's land of crime, smuggling, and violence. It is 
undermining development and democracy in at least half a dozen 
nations in Central and Southern Africa. It is making a mockery 
of regional efforts to slow the spread of HIV/AIDS. And it is 
ensuring that tens of millions of people will spend their lives 
utterly dependent on humanitarian aid. Long-term, this region 
needs to move from being a set of countries at war to being a 
set of countries in partnership with free trade, free 
circulation of people and goods, and security cooperation. This 
post-Lusaka security architecture might look like another SADC 
to the north of SADC, Southern African Development Community. 
This would very much be in the United States' interest, but it 
cannot happen without U.S. involvement.
    Thank you.
    [The prepared statement of Ms. Hara follows:]

   Prepared Statement of Fabienne Hara, Africa Project Co-Director, 
             International Crisis Group, Brussels, Belgium

    Thank you, Mr. Chairman, and thank you very much for inviting me 
here to testify on behalf of the International Crisis Group. I have 
just returned from Rwanda and Burundi; over the seven years that I have 
been working on Central Africa, I have lived in the region for three 
years, visited the Democratic Republic of Congo dozens of times, and 
met several times with President Joseph Kabila of DRC and repeatedly 
with President Pierre Buyoya of Burundi.
    After four years of war, the DRC has become one of Africa's most 
fertile grounds for criminal economic activities. It is a humanitarian 
catastrophe of staggering proportions, a distortion to the governments 
of the DRC's neighbors, and a major threat to African stability. At a 
time where the United States is so focused on the roots and effects of 
international disorder and terrorism, the Democratic Republic of Congo 
demands a much higher place on the U.S. agenda.
    The presence of armed insurgencies, including perpetrators of the 
Rwandan genocide, on the DRC's territory, has led to two wars: the 
first in 1996-1997 that led to the overthrow of President Mobutu; the 
second which began in 1998 and continues today. The result has been a 
three and a half year occupation of DRC territory by six foreign 
armies, the partition of Congo into three separately-administered 
territories, and the deaths of more than two million people, mostly 
civilians, from war, famine and disease.
    Despite the halt of the conventional war since the signing of the 
Lusaka cease-fire agreement in 1999, and a series of high-level 
contacts since then, Angola, Zimbabwe, Rwanda, Uganda and Burundi are 
still occupying DRC territory and have so far failed to agree on a 
timeframe for their departure. Rwanda and Zimbabwe still have massive 
troop deployments in the DRC.
    In effect, the fighting has shifted to eastern Congo, where Rwandan 
and Burundian governments continue to battle their own rebels on 
Congolese soil--and the Kinshasa government continues to support those 
rebel groups. In the Kivus region of eastern Congo, military operations 
by the Rwandan army as well as attacks by Rwandan, Burundian and 
Congolese armed groups are currently being carried out. The Rwandan-
backed rebel group RCD-Goma recently launched an offensive on the town 
of Moliro. RCD-Goma and Rwandan troop movements in Katanga province 
have in turn put Zimbabwean troops on alert. All these unsettling 
developments have resurrected the threat of a possible resumption of 
war.
    In the meantime, the war has contributed to the complete collapse 
of state authority across the DRC. This has led to the destruction of 
economic infrastructure and generated predatory behavior from the 
occupying armies and factions as well as from regional and 
international corporations. The violence committed by multiple armed 
factions, and the generalized communal division and hostility, have 
encouraged the emergence of warlords and of illegal trade networks of 
diamonds, minerals, arms and drugs, as documented by the UN panel 
reports on the illegal exploitation of DRC natural resources.
    The bigger war has aggravated several local sub-conflicts, 
particularly in eastern Congo, leading to destruction of local 
authority, inter-ethnic killings, the fragmentation of rebel groups and 
new tensions between Rwanda and Uganda. New local groups have recently 
challenged the RCD and Rwandan occupation forces in the Kivus. As 
inter-ethnic fighting continues, the fragmentation of the country 
increases, and there will need to be local reconciliation processes 
parallel to any national agreement.

                      STATUS OF THE PEACE PROCESS

    The Lusaka Agreement mandated a three-part interlocking process: 
disarming the non-Congolese armed groups in eastern Congo; the 
withdrawal of foreign forces; and an Intercongolese Dialogue among 
government, rebels, unarmed opposition and civil society. None of these 
steps is proceeding smoothly.
    The Rwandan Hutu militias, which set off the conflict in 1998, 
remain a fundamental stumbling block to peace. All sides have 
acknowledged that they must be disarmed, demobilized, repatriated to 
Rwanda, reintegrated and resettled there or in a third country--a UN 
process known as DDRRR. To move the process forward, all the latest UN 
resolutions on the DRC conflict have mentioned the necessity of a 
direct dialogue between President Kabila and Rwandan President Kagame. 
However, despite several meetings, no agreement has been reached and 
there has been no institutional follow up. The talks failed mainly 
because of the lack of trust and intransigence of the belligerents and 
the lack of a sustained, single process of mediation between the two 
leaderships. Rwanda accuses the DRC of harboring and supporting the 
Hutu militias and refuses to withdraw until a new government is 
established that can disarm these groups. The DRC government has 
acknowledged the presence of these Hutu fighters on its territory but 
has not been able to demonstrate that total support to these groups has 
stopped.
    The UN observer mission--MONUC--has 55 military observer teams 
deployed, but its so-called phase III deployment to the East in Kindu 
and Kisangani has been delayed. As a result, voluntary operations of 
disarmament have not yet started. MONUC has finally produced an 
assessment of the number and strength of armed groups, which is the 
first step to establishing DDRRR programs. Eventually, the MONUC 
presence will include 2000 troops in the east for DDRRR and a 
deployment to fill the security gaps when Kisangani, the DRC's third-
largest city, is demilitarized.
    On the political side, the Intercongolese Dialogue is intended to 
prepare for a new political dispensation that would rebuild national 
Congolese institutions and create the conditions for restoration of 
full sovereignty and territorial integrity. The Intercongolese Dialogue 
is currently taking place in Sun City in South Africa, but it is 
deadlocked. The first obstacle to progress is a dispute over the status 
of President Joseph Kabila and on the principles of a transitional 
constitution. The rebels and part of the civilian opposition, backed by 
Rwanda and Uganda, insist that a new president be appointed in Sun City 
for the transition period. President Kabila and his backers have agreed 
in principle to share power with the rebels; but they would exempt the 
Presidency and key security institutions, and insist that the rebels 
first return territories under their control to the Kinshasa 
administration. The second contentious issue is the format of the 
future security forces. The government proposes that the rebel armies 
be integrated in the Congolese Armed Forces, while the rebels want to 
see the creation of a completely new national army and claim its high 
command.
    The deadlock in the dialogue can be explained by two factors: 
first, neither side has won the war and can impose a solution; but 
neither feels that its situation is hopeless and that it must now 
compromise. Second, the states that have intervened in the Congo all 
have unsatisfied political, security and economic needs and don't want 
to see a strong and legitimate regime emerge in Kinshasa, which could 
jeopardize these interests. Many neighboring governments have grown 
dependent on the economic benefits of their presence in the DRC; while 
the security concerns that began the conflict, over Rwandan 
genocidaires, have not been resolved.

                   A STRATEGY FOR THE U.S. GOVERNMENT

    Because this stalemate is so dangerous for Africa as a whole, it is 
time for the U.S. government to reverse its approach on the DRC. Rather 
than exclusively focusing on the needs of external actors, the starting 
point should be to make the Congolese state self sustaining, giving the 
Congolese themselves the strength to better carry out their obligations 
to protect their own citizens and to ensure border security with the 
neighbor countries. This means that Congo will have to be governed in a 
different way than it has been. Both Mobutu and Laurent Kabila ruled 
with little interest in building domestic institutions and heavy 
reliance on foreign military support.
    First, in the short term, the U.S. government should immediately, 
consult with France, the U.K., Belgium and South Africa and build 
support for a two-step process in order to make the Intercongolese 
Dialogue successful. The first step should be to press the participants 
to produce a framework agreement on a transitional constitution and 
administrative reconstruction of the government, as well a basic 
program for the transition period before the end of the Sun City 
session. The future transitional government must commit to the proper 
policing of its territory and the ban of all armed groups operating on 
DRC territory. Then the U.S. will need to press the key players, both 
the Congolese and their backers, to find an agreement on a government 
of national unity. The U.S. government should put heavy pressure on all 
the foreign countries to start withdrawing as soon as the new 
transitional government is appointed and to publicly commit to support 
it.
    Second, the U.S. government needs to take a leadership role in 
seeing that Rwanda and the DRC sustain their direct dialogue and meet 
their commitments. President Kabila should first be convinced to 
fulfill international obligations, allow the arrest of key leaders of 
Rwandan genocide operating on his territory, with assistance of his 
allies or third parties, and transfer them to the International 
Criminal Tribunal for Rwanda. At the same time, Rwanda should be 
pressured to come up with a concrete plan of withdrawal. The sides 
should reach an interim agreement on border security, to allow 
withdrawal to proceed.
    Third, the U.S. should press for the appointment of a high-profile 
UN representative, to be charged with implementing the Sun City 
agreement, coordinating regional and international action on DDRRR, and 
helping harmonize the strategies of donors and the international 
financial institutions for the reconstruction of the country. Up to 
now, no one has been in charge of the overall Lusaka process, and the 
lack of coordination has been a significant drag on progress.
    Fourth, the U.S. government should work with the UN to prepare 
MONUC to become not just observers but a genuine peacekeeping force 
throughout the territory, to fill the gaps when a new Congolese 
government is in place and foreign forces begin to withdraw. In 
parallel it should begin consultations with other nations on security 
sector reform.
    Finally, the U.S. could play a special role in reconstruction by 
helping establish a regulatory environment and codes of conduct for 
business in Congo, in order to destroy the international channels for 
illicit trade and to establish a tax system that would benefit the 
reconstruction of the country and help give the central government a 
regular source of income.
    This deadly stalemate risks turning the DRC into a no-man's land of 
crime, smuggling and violence. It is undermining development and 
democracy in at least half a dozen nations in Central and Southern 
Africa. It is making a mockery of regional efforts to slow the spread 
of HIV/AIDS. And it is ensuring that tens of millions of people will 
spend their lives utterly dependent on humanitarian aid. Long-term, 
this region needs to move from being a set of countries at war to being 
a set of countries in partnership, with free trade, free circulation of 
people and goods, and even security cooperation. This post-Lusaka 
security architecture might look like another Southern African 
Development Community--SADC--to the north of SADC. This would be very 
much in the United States' interest--but it cannot happen without U.S. 
involvement.

    Senator Feingold. Thank you for that very helpful 
testimony.
    Mr. Dees.

STATEMENT OF LEARNED DEES, PROGRAM OFFICER FOR AFRICA, NATIONAL 
            ENDOWMENT FOR DEMOCRACY, WASHINGTON, DC

    Mr. Dees. Thank you, Mr. Chairman, for inviting me to 
testify today and for having concern about the issue in the 
Congo. I have prepared a full text and I ask that it be entered 
into the record and I will give a short summary of it.
    As a former Peace Corps volunteer who served in Zaire about 
15 years ago, I give my testimony as a personal testimony, not 
as a representative of the organization. I had an opportunity 
to return to the village where I was a Peace Corps volunteer 
about 15 years ago recently, and when I got to the village, I 
am haunted by what I heard. I met with my best friend, and I 
said, how are things going? How do you feel? And he said to me 
in the local language, ``beto ke bauumbi,'' and that means ``we 
are the walking dead.'' And in Congo, a nation of 60 million 
people, it is a nation of the walking dead that the 
international community has forgotten. I am haunted by those 
words, and I have prepared my testimony with that in mind.
    The National Endowment for Democracy is a nonprofit grant-
making organization created in 1983 to strengthen democratic 
institutions around the world through nongovernmental efforts. 
With its annual congressional appropriation the endowment makes 
hundreds of grants each year to support pro-democracy groups in 
every region.
    NED's program supporting civil society organizations in 
what is now the Democratic Republic of Congo began more than a 
decade ago. The first grants were made in 1990 to organizations 
which documented the abuses of the government of Mobutu Sese 
Seko. Among the first international funding organizations to 
support these efforts of nascent Congolese human rights 
pioneers, NED has provided assistance to human rights groups 
and pro-democracy groups in almost every region of the Congo. 
In fiscal year 2001, Congo was the No. 1 priority for NED's 
Africa grants program, and more than 30 grants were awarded to 
human rights groups and pro-democracy groups.
    This assistance to civil society organization in Congo has 
taken place in the context of political chaos, state collapse, 
and war, but the slow, steady deterioration of the state under 
Mobutu, to the war launched in 1996 to overthrow Mobutu, to the 
invasion in 1998 by Rwanda and Uganda aimed at toppling his 
successor, Congo has been caught in a cycle of war, violence, 
and retribution.
    I will speak briefly about the human rights situation. The 
impact of this conflict on 60 million people that live in the 
Congo has been nothing less than calamitous. Indeed, the 
conflict in the Congo has led directly and indirectly, as you 
have heard before, to the deaths of 2.5 million people. More 
people have died as a result of the conflict in the Congo in 
the last 6 years than any other conflict in the world.
    The collapse of the country's health infrastructure, the 
destitution of millions of internally displaced people fleeing 
the conflict, and the availability of arms has exacerbated a 
desperate situation, especially in the eastern portion of the 
Congo.
    In the east of the country, the human rights situation is 
extremely poor. Soldiers from Uganda and Rwanda, allied with 
local Congolese forces, operate with impunity. The three rebel 
movements have no popular support for their political or 
military aims in the regions they occupy. According to the 2001 
State Department report on human rights and local reports from 
human rights organizations, these rebels and foreign troops 
from Rwanda and Uganda are responsible for a long list of 
abuses, including deliberate, large-scale killings, 
disappearances, torture, rape, dismemberment, extortion, 
arbitrary arrest and detention, and the forcible recruitment of 
child soldiers.
    Human rights activists and journalists face severe 
restrictions and are often targets for abuse. Many human rights 
activists, including some supported by NED in Kisangani, Goma, 
Uvira, Beni, and Butembo, have themselves been victims of human 
rights abuses, including torture.
    A significant and underlying cause of continued conflict in 
the east is the presence of the Rwandan soldiers and militias 
associated with the Rwandan genocide in 1994. Estimates on 
their numbers vary from 10,000 to 20,000. Regardless of their 
number, their mere presence in the east is a destabilizing 
force. They have been armed by and allied to the Kinshasa 
Government and, on occasion, allied with local militia against 
the Rwandan-backed rebels. Thus, the resulting conflict between 
Rwandan combatants on Congolese soil victimizes first and 
foremost innocent Congolese civilians caught in the middle. 
Many innocent civilians have been killed after allegations of 
assisting one side or the other without a clear resolution to 
the fundamental disposition of these culpable armed combatants 
from Rwanda who have escaped justice, conflict is likely to 
continue.
    In the Congo, human rights abuses are not limited to one 
portion of the country. Significant abuses, in fact, also occur 
in the government-held territory. According to local human 
rights reports, the administration of Congolese President 
Joseph Kabila, which rules by decree, uses arbitrary arrest, 
torture, and detention as weapons against its critics. The 
government security forces operate with complete impunity. Also 
among its targets are journalists, human rights activists, and 
political opponents.
    Complicating this picture, as you have already heard, is 
the connection between conflict and control of precious natural 
resources. This has been the subject of two United Nations 
Security Council reports. The panel concluded that the 
exploitation was systemic and systematic involving networks of 
government officials, military officers, military-owned 
companies from Rwanda, Zimbabwe, Uganda, and Congo and the 
involvement of European and American businessmen and companies.
    It is clear that the Congo provides fertile ground for any 
criminal network in the world wishing to launder money in 
exchange for illicit goods such as diamonds. There is, in 
conclusion, a strong financial disincentive for ending the war.
    A quick note on MONUC, the United Nations mission. It has 
played an important role in verifying and maintaining the 
fragile cease-fire. With a mandate of slightly more than 5,000 
troops, staff members, and monitors, MONUC has been deployed to 
the front line, and many Congolese consider their presence 
important and reassuring. In a fluid and complex conflict, 
MONUC has provided an independently reliable source of 
information, and despite its size, an effective force of 
interposition. In many ways, this thin blue line is all that 
separates Congo from chaos.
    The inter-Congolese dialog is the discussion that is going 
on now in South Africa to bring together the various forces in 
the Congo to come up with a solution. Now in its final week, 
the participants appear some ways away from the essential 
agreement on the most important points, although progress has 
been made on some of the issues. Among the sticking points are 
the dates and time of retreat of foreign troops, the structure 
and identity of the individuals who will lead the transition, 
and a strategy for reconstituting the army. These, of course, 
are the most important points. With just days to go to bring 
peace, there is a real fear that dialog which does not deliver 
at least some substantive agreement pointing to the direction 
of peace, will in effect mean a maintenance of the status quo 
in the best case scenario and a return to war in the worst.
    It is the maintenance of the status quo which the majority 
of the Congolese people reject. The status quo means the 
continued division of the country, continued violence, the 
continued misery of 60 million people who, for all practical 
purposes, are stateless and depend on themselves. The status 
quo means continued repression against ideas which are not in 
sync with those who are in control of the various areas.
    Of course, for the belligerents, the perspective is 
different. It means the ability to control the levers of 
coercion. It means the ability to control the abundant and 
precious resources in their areas.
    Urgent action is required to prevent this return to war. I 
would like to highlight just a couple of recommendations.
    First and foremost, given the gravity of the situation and 
the status of the talks in Sun City, it is imperative that the 
U.S. Government engage to play a leadership role in ensuring 
that an inconclusive end to the talks this week are not an 
excuse for a return to war. Specifically this means that the 
United States get the U.N. to endorse a followup process to be 
coordinated by an international personality with a profile and 
support commensurate with the gravity of the crisis. This 
person would coordinate, as was mentioned by Fabienne, the 
implementation of the three main elements of the Lusaka 
Accords: the reunification of the country, the withdrawal of 
foreign forces, and the demobilization process.
    You asked the speaker on the previous panel about the 
demilitarization program. I think it is a priority that the 
U.S. Government should provide leadership in devising a 
realistic program which will focus on disarming the AliR forces 
and bringing the culpable members of its leadership to justice, 
while providing at the same time assurance to the other members 
that they can be reintegrated back into the Rwandan society.
    With that I would like to finish my testimony and thank you 
once again for calling the hearing.
    [The prepared statement of Mr. Dees follows:]

  Prepared Statement of Learned Dees,\1\ Program Officer for Africa, 
                    National Endowment for Democracy
---------------------------------------------------------------------------

    \1\ The views reflected in this document are my own.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Sub-Committee:
    Thank you for inviting me to testify on the topic of Weak States in 
Africa-U.S. Policy Options in the Democratic Republic of the Congo.
    The National Endowment for Democracy (NED) is a nonprofit, 
bipartisan grant-making organization created in 1983 to strengthen 
democratic institutions around the world through nongovernmental 
efforts. With its annual Congressional appropriation, the Endowment 
makes hundreds of grants each year to support pro-democracy groups in 
every region of the world. Endowment programs in the areas of labor, 
free-market and political party development are conducted by four core 
institutes: the American Center for International Labor Solidarity 
(ACILS), the Center for International Private Enterprise (CIPE), the 
International Republican Institute (IRI) and the National Democratic 
Institute for International Affairs (NDI). The discretionary grants 
program assists pro-democracy organizations in other countries doing 
work in areas such as human rights, civic education and political 
participation, independent media and the free flow of information, the 
rule of law and democratic governance and conflict resolution.
    The National Endowment for Democracy has been providing support for 
civil society organizations in what is now the Democratic Republic of 
Congo (formerly Zaire) for more than a decade. The Endowment's first 
grants there were made in 1990 to human rights organizations which 
documented the abuses of the Mobutu Sese Seko regime. Among NED's first 
grantees was the Voice of the Voiceless, the country's oldest human 
rights group, which was founded by idealistic college students in the 
late 1980s. In 1993, the Endowment made a grant to the International 
Human Rights Law Group for human rights training and capacity building 
in the east of the country. It was the first international assistance 
specifically for human rights capacity building and contributed to the 
training of a generation of human rights activists, many of whom have 
assumed leadership positions in the human rights movement, including 
Inimaculee Birhaheka, the 2000 winner of the Martin Ennals Award, a 
prize awarded annually by the world's 10 leading human rights 
organizations. The Endowment was among the first international funding 
organizations to support the efforts of these Congolese human rights 
pioneers and over the years Endowment assistance has helped human 
rights groups in almost every region of the country. In FY 2001, Congo 
was the number one priority for NED's Africa grants program and more 
than 30 grants were awarded to human rights and pro-democracy groups.
    NED's direct assistance to civil society organizations in Congo has 
taken place in the context of political chaos, state collapse and war. 
From the slow but steady deterioration of the state under Mobutu Sese 
Seko, to the war launched in 1996 with the aim of overthrowing Mobutu, 
to the invasion in 1998 by Rwanda and Uganda, aimed at toppling his 
successor, Laurent Kabila, Congo has been caught in a cycle of 
violence, retribution and war.

        THE HUMAN RIGHTS SITUATION AND THE ROLE OF CIVIL SOCIETY

    The impact of this conflict on Congo's 60 million people has been 
nothing less than calamitous. Indeed, the conflict in the Congo has 
led, directly and indirectly, to the deaths of more than an estimated 
three million people. More people have died as a result of the conflict 
in the Congo in the last six years than from any other conflict in the 
world.
    The collapse of the country's health infrastructures, the 
destitution of hundreds of thousands of internally displaced people 
fleeing the conflict and the continued availability of arms have 
exacerbated a desperate situation, especially in the Eastern portion of 
the Congo now under control of various factions seeking to overthrow 
the current government of Joseph Kabila in Kinshasa.
    This vicious cycle of war and retribution has filtered down from 
cities to towns to villages. Innocent civilians are at the mercy of 
numerous armed groups who roam the countryside. Both international 
human rights groups and local groups have documented numerous massacres 
of civilians by marauding combatants who make no distinction between 
other armed combatants and innocent bystanders, including women and 
children. In this context of conflict, clearly the human rights 
situation is grave. Numerous human rights organizations have detailed 
the extensive use of arbitrary arrest, imprisonment and torture.
    In the east of the country, the human rights situation is extremely 
poor. Soldiers from Uganda and Rwanda, allied with local Congolese 
forces, operate with impunity. The three rebel movements, the Congolese 
Rally for Democracy (RCD/Goma), the Movement for the Liberation of the 
Congo (MLC), and the Congolese Rally for Democracy--based in Bunia 
(RCDIML)--have no popular support for their political or military aims 
in the regions they occupy. According to the 2001 State Department 
report on human rights, and local reports from human rights 
organizations, these rebel groups and foreign troops from Rwanda and 
Uganda are responsible for a long list of abuses including deliberate, 
large scale killings, disappearances, torture, rape, dismemberment, 
extortion, arbitrary arrest and detention, and forcible recruitment of 
child soldiers.
    Human rights activists and journalists face severe restrictions and 
are often targets for abuse for disseminating human rights reports or 
news stories critical of local military or political officials. Many 
human rights activists, including some supported by NED in Kisangani, 
Goma, Uvira, Beni and Butembo, have themselves been victims of human 
rights abuses, including torture.
    In addition to these abuses local military and political leaders 
have manipulated and exacerbated ethnic tensions with disastrous 
consequences. One such example is the conflict between people from Hema 
and Lendu ethnic groups in North Kivu. Since the fighting began in 
1999, nearly 8,000 people have been killed and 200,000 displaced. Both 
local and international reports implicate Ugandan army commanders in 
causing or exacerbating the conflict.
    In South Kivu, fighting has broken out recently between the RCD and 
members of the Banyamulenge ethnic group. This conflict has serious 
consequences for this vulnerable Tutsi community which has had its 
nationality questioned and been the target of ethnic attacks for the 
better part of the last decade. The Banyamulenge community has 
requested that UN peacekeepers visit the High Plateau area of South 
Kivu to verify the gravity of the situation.
    A significant and underlying cause of continued conflict is the 
presence of Rwandan soldiers and militias associated with the Rwandan 
genocide in 1994 (formerly known as Interahamwe now known as ALIR 
forces). Estimates on the number of these Rwandan combatants rage from 
10,000 to 20,000. Regardless of the numbers, their mere presence in the 
east of the Congo is a destabilizing force. They have been armed by and 
allied to the Kinshasa government and, on occasion, allied with local 
militias against the Rwandan-backed rebels. Thus, the resulting 
conflict between Rwandan combatants on Congolese soil victimizes first 
and foremost innocent Congolese civilians caught in the middle. Many 
innocent civilians have been killed after allegations of assisting or 
siding with one or the other of these armed groups. Without a clear 
resolution to the fundamental disposition of these culpable armed 
combatants from Rwanda, who have escaped justice, conflict is likely to 
continue.
    Another substantial armed force operation in the east of Congo is 
the local self-defense militias, known as Mai-Mai, who are likewise 
responsible for human rights abuses against civilians including 
killings, rapes, torture, kidnaping and the arbitrary arrest and 
detention of civilians.
    In Congo human rights abuses are not limited to one portion of the 
country. Significant abuses, in fact, are also occurring in government 
held territory. According to local human rights reports, the 
administration of Congolese President Joseph Kabila, which rules by 
decree, uses arbitrary arrest, torture and detention as a weapon 
against it critics. The government security forces operate with 
complete impunity. Among its many targets are journalists, human rights 
activists and political opponents. One such victim was Golden Misabiko, 
a staff member of the African Association in Defense of Human Rights 
(ASADHO), who was detained for alleged complicity in the assassination 
of the head of state, Laurent Kabila, tortured and later released. The 
government, like the rebel movements, often forcibly recruits child 
soldiers.
    Further complicating this all around dismal human rights picture is 
the connection between the conflict and control over precious natural 
resources. This was the subject of two reports last year conducted by 
the United Nations Security Council appointed Panel of Experts on the 
Illegal Exploitation of Natural Resources. The panel concluded that 
exploitation of resources was systematic and systemic, involving 
networks of government officials, military officers, and military owned 
companies from, Rwanda, Zimbabwe, Uganda, and Congo with the 
involvement of European and American businessmen and companies.
    According to a recent Oxford Analytica brief on the Congo, illegal 
exploitation of the country's mineral resources including diamonds, 
timber, coltan and gold continues despite increased international 
attention. The report draws a connection between fighting and 
resources, noting that recent outbreaks of fighting in eastern Congo 
have been highly localized around key coltan mining areas. It is clear 
that Congo provides fertile ground for any criminal network in the 
world wishing to launder money in exchange for illicit goods such as 
diamonds. There is, in conclusion, a strong financial disincentive for 
ending the war.
    The United Nations Peace Keeping mission (MONUC) has played an 
important role in verifying and maintaining the fragile cease-fire. 
With a mandate of slightly more than 5,000 troops and support staff and 
monitors, MONUC has deployed to the front lines and many Congolese 
consider their presence important and reassuring. In a fluid and 
complex conflict MONUC has provided an independently reliable source of 
information, and despite its limited size, an effective force of 
intervention. In many ways this thin blue line is all that separates 
Congo from complete chaos.
    Yet, despite this bleak environment and great hardships borne by 
the majority of the Congolese, civil society continues to fill the 
space left vacant by inaction and war. Efforts to rebuild Goma, for 
example, which was almost completely destroyed by the recent eruption 
of a volcano, are being led by local NGOs whose grassroots links have 
made distribution of humanitarian assistance possible. NGOs and 
religious organizations based in Catholic and Protestant churches are 
filling gaps in the health, developmental, and agricultural sectors. 
Although their self-reliance skills are finely honed, these NGOs are 
now greatly tested by the war and economic collapse. Regardless of the 
outcome of the current political discussions and military situation, 
civil society, including religious institutions, nongovernmental 
organizations, professional associations, and trade unions will 
continue to play a significant role in the country's future, if 
properly supported.

The Inter-Congolese Dialogue
    After the assassination of Congo's President Laurent Kabila in 
January 2001, at the hands of his own bodyguards, the moribund peace 
process was given new life. Kabila's son Joseph took over and 
articulated a desire for peace. The Lusaka Accord, which was brokered 
with U.S. assistance and first signed in 1999 was suddenly back in 
play. The agreement itself included a cease-fire, the introduction of 
United Nations peacekeepers, provisions for a roundtable discussion 
bringing together the government, civil society, political parties and 
rebel groups. This discussion, known as the Inter-Congolese Dialogue, 
was set up to be the central forum in which Congolese leaders would 
devise a plan of action for moving the country from war to peace.
    The meeting was charged with, among other things, devising a legal 
framework for a transitional government, and the institutions for the 
transition, creating a national army, and establishing a timetable for 
the withdrawal of all foreign forces as well setting a timetable for 
future elections. So far the 400 Congolese participants, including 
representatives of the Congolese government, armed and unarmed 
opposition members and members of civil society have divided up into 
five commissions aimed at presenting final recommendations for the 
group's final approval this week. The commissions are 1) the political 
commission, which is tasked to examine the causes and consequences of 
war, the new political institutions and the leaders of the transition, 
2) the humanitarian social and cultural commission assigned to examine 
modalities and timing for humanitarian relief and setting up a peace 
and reconciliation committee, 3) the defense and security commission, 
assigned to determine the timing of the withdrawal of foreign troops, 
constituting a new army, and disarmament of armed groups, 4) economic 
and financial commission assigned to look at how to jump start the 
economy, the impact of economic decisions made during the war as well 
as economic revitalization, and 5) the commission of peace and 
reconciliation.
    The discussion was slated to begin February 25 and run through 
April 12, a length of 45 days. The meeting, however, was initially 
delayed because of a dispute over the participation of specific 
participants. That dispute was eventually resolved but precious time 
was lost and now in the final week participants appear some ways away 
from the essential agreement on the most important issues. As one of 
the biggest contingents at the dialogue civil society or la force vive 
is playing a pivotal role in trying to bridge the divide that separates 
the various protagonists. But significant issues continue to divide the 
delegates.
    Among the sticking points are the dates and timing for the retreat 
for foreign troops, the structure and identity of the individuals who 
will lead the transition, and a strategy for reconstituting the army. 
These, of course, are the most important points for a transition to 
peace. Recent African led-efforts to dislodge the blockage surrounding 
some of these issues have failed. With now just days to go before the 
conclusion of the discussion to bring peace, there is a real fear that 
dialogue which does not deliver at least some substantive agreement 
pointing in the direction of peace, will in effect, mean a maintenance 
of the status quo in the best case, and a return to war in the worst 
case.
    It is the maintenance of the status quo which the majority of the 
Congolese people reject. The status quo means the continued division of 
the country, continued violence, the continued misery of 60 million 
people who, for all practical purposes are stateless, with only 
themselves to depend upon. The status quo means continued repression 
against ideas not in synch with those who control the various areas.
    For the belligerents, of course, the perspective is different. It 
means the ability to maintain control over the levers of coercion. It 
also means the ability to maintain control over the abundant and 
precious resources in the areas under their control.
    Urgent action is required to prevent the return to war. The 
following is a list of recommendations which could help avert the 
looming disaster.

                            RECOMMENDATIONS

    Engagement by the U.S. government to play a leadership role in 
insuring that an inconclusive end to the Inter-Congolese Dialogue does 
not become an excuse for a return to war. Specifically, this means 
insuring that the UN endorse a follow-up process to be coordinated by 
an international personality with a profile and political support 
commensurate with the gravity of the crisis. This person would 
coordinate implementation of the three main elements of the Lusaka 
Accords: the re-unification of the country, withdrawal of all foreign 
forces, and the demobilization process.
    The UN Security Council, with strong support and leadership from 
the U.S. government should endorse the call for strengthening of the 
MONUC peacekeepers when its mandate is up for renewal this summer. The 
mandate should support an increase as well in MONUC's human rights 
monitoring programs and provide political support for deployment of 
MONUC observers to Bunia and Minembwe.
    The U.S. government should provide leadership in devising a 
realistic Demilitarization Demobilization Reintegration Reconstruction 
and Reconciliation (DDRRR) program which will focus on disarming ALIR 
forces and bringing culpable members of its leadership to justice, 
while providing assurances to other members that they will be 
reintegrated back into Rwanda society.
    The United States should strongly and regularly denounce violations 
of international human rights and humanitarian law by all parties 
involved in the DRC war. This would also include vigorous condemnation 
of recruitment, abduction and training of children. Exert strong and 
constant pressure on all foreign countries involved in the war to abide 
by UN Security Council resolutions.
    Significantly increase the level of funding for humanitarian 
assistance in the DRC generally and in eastern Congo specifically.

    Senator Feingold. Well, thank you too, Mr. Dees, for your 
good testimony and the personal observations and the 
recommendations as well. It is very helpful.
    Ms. Edgerton.

 STATEMENT OF ANNE EDGERTON, ADVOCATE, REFUGEES INTERNATIONAL, 
                         WASHINGTON, DC

    Ms. Edgerton. Thank you. I want to thank the chairperson of 
the Subcommittee on African Affairs, Senator Russell Feingold, 
and the members and the staffers of the subcommittee as well 
for providing the opportunity for Refugees International to 
testify at this hearing.
    Since 1999, Refugees International [RI] has completed seven 
humanitarian assessment missions to eastern DRC.
    At the outset of my testimony, I want to stress two points. 
First, unless the prevailing insecurity is halted, there can be 
no sustainable development in the east. Security is the single 
most important area for the international community to address. 
Second, I see no reason, based on my most recent trip to the 
DRC, to modify RI's conclusion based on our earlier mission in 
December 2000, that nowhere in the world is the gap between 
humanitarian needs and the response of the international 
community greater than in the DRC. The efforts of the 
international community appear feeble and ineffective, dwarfed 
by the scale of the suffering that they are intended to 
mitigate. Only if peace is achieved and humanitarian assistance 
substantially increased can this gap be bridged.
    After many interviews over the past 3 years, RI has found 
that Congolese civilians in the eastern portion of the country 
are increasingly at the mercy of armed groups, including rebel 
forces backed by regional powers, the Mayi-Mayi and the 
Interahamwe, who murder civilians, rape women, capture 
children, and steal crops with impunity. In the shadow of 
insecurity, the village economy has given way to a war economy 
which drives boys and young men to become child soldiers where 
they get a gun. Much of the violence that is still occurring in 
the east today is totally devoid of a political or strategic 
rationale. It is banditry to allow unpaid soldiers to survive. 
This makes the violence endemic and resistant to amelioration 
through political action.
    The insecurity and lack of a functioning government opens 
the eastern Congo to foreign interests involved in exploitation 
and smuggling of primary products such as coltan, diamonds, and 
timber.
    The insecurity severely and directly hampers the delivery 
of emergency assistance. Access to war-affected civilians is 
limited by two great factors: the enormous territory of the 
Congo, which lacks a functioning transport network, and the 
rampant insecurity, which further complicates delivery in the 
eastern portion of the country and often prevents access to 
vulnerable populations for months at a time.
    The United States and the international community have 
supported various cease-fire and peace agreements through 
several measures, including U.N. Security Council resolutions, 
the deployment of the United Nations Organization Mission to 
the Congo, or MONUC, and dedication in name to the process of 
the inter-Congolese dialog.
    If and when a real cease-fire is achieved, a requirement 
for maintaining the peace will be the demobilization of armed 
personnel. MONUC's mandate includes the creation of a 
disarmament, demobilization, and reintegration plan. But the 
concern is whether the international community will provide the 
timely financial support that will be required to make the plan 
a reality. As we have seen in Angola, for example, when the 
demobilization is underfunded, it takes very little time for 
the conflict to resume.
    The United States remains one of the largest donors to the 
Congo. Nonetheless, in fiscal year 2001, donor response came to 
only 60 percent of the funds requested by the U.N. Consolidated 
Inter-Agency Appeal, and fiscal year 2002 does not look more 
promising.
    Individual development organizations have since 1994 
changed the focus of their programs to include humanitarian and 
emergency assistance. These organizations continue to be 
involved in humanitarian work, particularly in the eastern 
parts of the country, which are most affected by the war and 
mass displacement. Oxfam finds that countrywide 65 percent of 
the population has no access to safe water and 40 percent of 
primary school-age children have no access to education. In a 
recent survey conducted by World Vision staff in North Kivu 
province in January, 2 of 16 villages chosen could not be 
included at the last minute because of prevailing insecurity. 
Of the villages assessed for health and nutrition, a 30 percent 
global malnutrition rate surfaced, with 14 percent or almost 
half of that being severe malnutrition. Such numbers have not 
been seen by the humanitarian community since the 1998 famine 
in Sudan.
    Through local NGO's and church-affiliated networks, 
numerous Congolese are attempting to ease the suffering of 
their people. Some of the most effective associations have been 
the local peace committees.
    Given the strength of Congolese civil society, development 
assistance must support local organizations, thereby enhancing 
effectiveness by being more responsive to local input and 
conditions. Only by putting local communities in the driver's 
seat while avoiding local armed elements, can development be 
sustainable. Donors need to respond to the requests from the 
community structures that remain intact after years of war.
    One way to measure the level of community involvement in 
bridging the gap to development is to talk with women. Women's 
groups have consistently advocated a stop to the conflict and 
urged all sides to try to return to peace. Traditionally, 
development and assistance programs only include women in the 
gender or soft social programs. But donors and beneficiaries 
could both benefit from involving women in the planning stages 
of infrastructure and public policy programs.
    Given the above, Refugees International would like to make 
the following recommendations to the U.S. Government.
    Commit to high profile, U.S. attention to the 
implementation of the Lusaka Peace Accords, with special 
attention to stopping the atrocities.
    Consider applying targeted economic sanctions, such as the 
freezing of bank accounts of those benefiting from the economic 
exploitation of Congolese resources, on governments and 
individuals that continue to block the implementation of the 
Lusaka Accords.
    Identify ways, either through the U.N. or through U.S.-
based NGO's to channel assistance to small-scale Congolese 
peace building, humanitarian, and development efforts.
    In addition, RI makes the following recommendations to the 
United States as a member of the international community.
    Ensure that MONUC fulfills its current mandate and support 
the expansion of its troop presence in the Congo, as called for 
by the U.N. Secretary General on February 15.
    Increase investment in the U.N. Consolidated Inter-Agency 
Appeal, with particular focus on infrastructure improvements 
throughout the country and support for humanitarian assistance 
in the east.
    Reassess the modes of delivery of development assistance to 
ensure that community-based organizations are the driving force 
in the design and implementation of development projects.
    Appoint a senior U.N. humanitarian coordinator for the 
eastern Congo, a high profile official who would work under the 
direction of Kinshasa, but would have the necessary weight and 
authority to advocate for a greater humanitarian response in 
the east and for greater access from the belligerents.
    Ensure that women directly gain access to development 
assistance at the local level.
    Support improvement in public expenditure management to 
ensure that the revenues generated in foreign exchange sectors 
benefit the Congolese people.
    I thank you.
    [The prepared statement of Ms. Edgerton follows:]

      Prepared Statement of Anne C. Edgerton, Advocate, Refugees 
                             International

    I want to thank the Chairperson of the Subcommittee on African 
Affairs, Senator Russell Feingold, and the members of the Subcommittee, 
for providing the opportunity for Refugees International (RI) to 
testify on the current humanitarian crisis unfolding in the Democratic 
Republic of Congo (DRC), and to comment on the kind of assistance the 
U.S. could provide to contribute to a peaceful, stable Congo. Since 
1999, Refugees International has completed seven humanitarian 
assessment missions to eastern DRC. Our most recent mission, in January 
2002, was punctuated by the eruption of Mount Nyiragongo.
    At the outset of my testimony I want to stress two points. First, 
unless the prevailing insecurity is halted, there can be no sustainable 
development in the east. Security is the single most important area for 
the international community to address. Second, I see no reason based 
on my most recent trip to the DRC to modify RI's conclusion based on 
our earlier mission in December 2000: nowhere in the world is the gap 
between humanitarian needs and the response of the international 
community greater than in the DRC. The efforts of the international 
community appear feeble and ineffective, dwarfed by the scale of the 
suffering they are intended to mitigate. Only if peace is achieved and 
humanitarian assistance substantially increased can this gap be 
bridged.
    The 1999 Lusaka Peace Accords provided the framework for an ordered 
withdrawal of foreign troops from Congolese soil, the disarmament of 
rebel groups, including the Interahamwe, and an inter-Congolese 
dialogue leading to the formation of a unity government for the 
country. While lines of demarcation were agreed upon, and a cease-fire 
line has nominally held for the past year, fighting nonetheless 
continues in the eastern portion of the country. Current flare-ups in 
South Kivu and Ituri provinces, under the control of rebel forces 
backed respectively by Rwanda and Uganda, are two examples of fighting 
between these rebels and the indigenous population. An armed Congolese 
movement is the Mayi-Mayi, a military local defense force with a 
current political objective of representation within the inter-
Congolese dialogue.
    After many interviews over the past three years, RI has found that 
Congolese civilians in the eastern portion of the country are 
increasingly at the mercy of armed groups, including rebel forces 
backed by regional powers, the Mayi-Mayi, and the Interahamwe, who 
murder civilians, rape women, capture children, and steal crops with 
impunity. In the shadow of insecurity, the village economy has given 
way to a war economy which drives boys and young men to enlist in the 
army, where they are not paid or fed, but at least they get a gun. Much 
of the violence that is still occurring in the east today is totally 
devoid of a political or strategic rationale; it is banditry to allow 
unpaid soldiers to survive. This makes the violence endemic and 
resistant to amelioration through political action.
    The insecurity and lack of a functioning government opens the 
eastern Congo to foreign interests involved in exploitation and 
smuggling of primary products such as coltan, diamonds, and timber. The 
local population benefits tangentially by assisting these foreign 
business interests, either as owners, beneficiaries of bribes and other 
financial dealings, or as workers hoping to gain the means to live by 
selling primary products.
    The insecurity severely and directly hampers the delivery of 
emergency assistance. Access to war-affected civilians is limited by 
two great factors: the enormous territory of the Congo, which lacks a 
functioning transport network, and the rampant insecurity, which 
further complicates delivery in the eastern portion of the country and 
often prevents access to vulnerable populations for months at a time.
    The U.S. and the international community have supported the various 
cease-fire and peace agreements through several measures, including UN 
Security Council resolutions, the deployment of the United Nations 
Organization Mission to the Congo (MONUC), and dedication in name to 
the process of the inter-Congolese dialogue. Currently, there are 5,500 
MONUC troops approved by the UN Security Council, although only about 
two-thirds have been deployed. The Secretary General has requested an 
extension and expansion of MONUC. Even if all MONUC troops and 
observers were to be deployed, their effectiveness would be limited, 
because their mandate allows them to serve only as observers of a 
cease-fire and prevents them from responding to the violence that 
swirls through the eastern portion of the country. At the very least, 
MONUC should be more aggressive in disseminating information widely on 
the security situation and the human rights abuses that its personnel 
observe. MONUC could do this within its existing mandate.
    If and when a real cease-fire is achieved, a requirement for 
maintaining the peace will be the demobilization of armed personnel. 
MONUC's mandate includes the creation of a disarmament, demobilization, 
and reintegration plan, but the concern is whether the international 
community will provide the timely financial support that will be 
required to make the plan a reality. As we have seen in Angola, for 
example, when the demobilization process is underfunded, it takes very 
little time for the conflict to resume.
    Child soldiers are prevalent in the Congo. All parties to the 
conflict employ them. In the context of the Lusaka Peace Accords, the 
international community has had some success in stigmatizing the 
recruitment of child soldiers, but the commitment of the parties to 
demobilizing them has thus far been largely a public relations 
exercise. It is a collective responsibility of the international 
community to make sure that the acceptance of children in the ranks of 
soldiers delegitimizes a government or rebel force. Because of the 
special needs and vulnerabilities of child soldiers, the demobilization 
plan should contain provisions for the separation of child soldiers 
from other combatants and for their rapid exposure to education and 
other services. Programs also need to focus on reintegrating these 
children into their communities and assuring that support for child 
soldiers is in the context of programs that reaches all vulnerable 
children.
    The U.S. remains one of the largest donors to the Congo. In fiscal 
year 2001, the U.S. donated almost $100 million in development and 
humanitarian assistance, and remains the largest bilateral creditor to 
the Congo, providing 21% of the Congolese external debt. Nonetheless, 
in fiscal year 2001 donor response came to only 60% of the funds 
requested by the UN Consolidated Inter-Agency Appeal, and FY 2002 does 
not look more promising. As such, the UN humanitarian operation is made 
more difficult due to severe under-funding.
    The UN and NGO humanitarian network is attempting to manage a 
complex and daunting humanitarian challenge for the entire Congo from 
Kinshasa. While this approach is understandable in that it supports the 
principle of the territorial unity and integrity of this vast country, 
the practical consequence is the relative neglect of the eastern region 
of the country where the needs are greatest.
    In addition to attempting to respond to humanitarian needs, the UN 
is also addressing infrastructure needs by rehabilitating the internal 
transportation network, especially rail lines and river barges. This 
can help to recommence the flow of commercial goods and allow 
humanitarian supplies to reach isolated areas.
    Individual development organizations have, since 1994, changed the 
focus of their programs to include humanitarian and emergency 
assistance. These organizations continue to be involved in humanitarian 
work, particularly in the eastern parts of the country, which are most 
affected by the war and mass displacement. Oxfam finds that, country-
wide, 65% of the population has no access to safe water, and 40% of 
primary school-age children have no access to education. In a recent 
survey conducted by World Vision staff in North Kivu province in 
January, two of sixteen villages chosen could not be included at the 
last minute because of prevailing insecurity. Of the villages assessed 
for health and nutrition, a 30% global malnutrition rate surfaced, with 
14%, or almost half of that being severe malnutrition. Such numbers 
have not been seen by the humanitarian community since the 1998 famine 
in Sudan.
    The Congolese are impressive organizers. Through local NGOs and 
church-affiliated networks numerous Congolese are attempting to ease 
the suffering of their people. Some of the most effective associations 
have been the local ``peace committees.'' These are inter-ethnic 
associations that attempt to mobilize community response around a 
shared goal, such as building a school or repairing a road. These 
organizations draw primarily on local resources, however, so they lack 
capital to undertake many projects. These all-volunteer committees 
would benefit from an infusion of small amounts of resources to give 
them the means to expand their efforts.
    Given the strength of Congolese civil society, development 
assistance must support local organizations, thereby enhancing 
effectiveness by being more responsive to local input and conditions. 
Only by putting local communities in the drivers' seat, while avoiding 
local armed elements, can development be sustainable. Donors need to 
respond to the requests from the community structures that remain 
intact after years of war.
    One way to measure the level of community involvement in bridging 
the gap to development is to talk with women. Women's groups have 
consistently advocated a stop to the conflict and urged all sides to 
try to return to peace. Traditionally, development and assistance 
programs only include women in the ``gender'' or soft social programs. 
But donors and beneficiaries could benefit from involving women in the 
planning stages of infrastructure and public policy programs.
    Refugees International makes the following recommendations to the 
US government:

  <bullet> Commit to high profile, U.S. attention to the implementation 
        of the Lusaka Peace Accords, with special attention to stopping 
        the atrocities.
  <bullet> Consider applying targeted economic sanctions, such as the 
        freezing of bank accounts of those benefiting from the economic 
        exploitation of Congolese resources, on governments and 
        individuals that continue to block the implementation of the 
        Lusaka Accords.
  <bullet> Identify ways, either through the UN or through U.S.-based 
        NGOs, to channel assistance to small-scale Congolese peace-
        building, humanitarian, and development efforts.

In addition, RI makes the following recommendations to the U.S. as a 
member of the international community:

  <bullet> Ensure that MONUC fulfills its current mandate and support 
        the expansion of its troop presence in the Congo.
  <bullet> Increase investment in the UN Consolidated Inter-Agency 
        Appeal, with particular focus on infrastructure improvements 
        throughout the country and support for humanitarian assistance 
        in the east.
  <bullet> Reassess the modes of delivery of development assistance to 
        ensure that community-based organizations are the driving force 
        in the design and implementation of development projects.
  <bullet> Appoint a senior UN humanitarian coordinator for the eastern 
        Congo, a high-profile official who would work under the 
        direction of Kinshasa, but would have the necessary weight and 
        authority to advocate for a greater humanitarian response in 
        the east and for greater access from the belligerents.
  <bullet> Ensure that women directly gain access to development 
        assistance at the local level.
  <bullet> Support improvement in public expenditure management to 
        ensure that the revenues generated in foreign exchange sectors 
        benefit the Congolese people.
                                 ______
                                 

                      [RI Bulletin--Jan. 28, 2002]

       EASTERN CONGO: BEYOND THE VOLCANO, A SLOW MOTION HOLOCAUST

    The eruption of Mount Nyiragongo in the eastern Congo on January 
17th destroyed half of Goma, a city of 500,000 people, caused over 100 
deaths, and sent thousands of the town's residents across the border 
into Rwanda to seek temporary shelter. As destructive as the volcano 
was, the devastation of its impact pales in comparison to the 
consequences of the on-going conflict in the region. This war is a 
human disaster of unimaginable proportions, the equivalent of daily 
volcanic eruptions, but with far greater social and economic 
consequences.
    Refugees International just completed a two-week humanitarian 
assessment mission to the eastern Congo, a mission capped by the 
eruption of Mount Nyir gongo. After many interviews with Congolese 
children, local NGO leaders, and the staff of UN organizations and 
international NGOs, the picture that emerges is a tapestry of pain for 
the Congolese people, who are at the mercy of armed groups who steal 
crops, murder civilians, rape women, and capture children with 
impunity. The efforts of the international community appear feeble and 
ineffective, dwarfed by the scale of the suffering they are intended to 
mitigate.
    The 1999 Lusaka Peace Accords nominally provide the framework for 
an ordered withdrawal of foreign troops from Congolese soil, the 
disarmament of rebel groups (the so-called ``negative forces,'' 
including the Interahamwe, the Hutu militia responsible for the 1994 
genocide in Rwanda), and an inter-Congolese dialogue leading to the 
formation of a unity government for the country. While a few gestures 
have been made to withdraw foreign forces to lines of control and 
achieving a ceasefire, the critical steps towards genuine peace have 
not been taken. Indeed, fighting in the east has actually increased in 
recent months as Congolese parties to the conflict, especially the 
Rwandan-backed Congolese Rally for Democracy (RCD) and the Mayi-Mayi 
(the armed group contesting the Rwandan occupation) try to demonstrate 
their strength to gain greater representation within the inter-
Congolese dialogue.
    The most plausible scenario for reducing the conflict would involve 
the Rwandans agreeing to withdraw their troops from the Congo in 
exchange for international security guarantees along their border and 
the cessation of the Kinshasa government's support for the Interahamwe 
and the Mayi-Mayi. Neither Paul Kagame, the President of Rwanda, nor 
Joseph Kabila, the President of the Democratic Republic of the Congo 
(DRC), appear willing to reach such an accommodation, leaving the 
Congolese people caught in an endless cycle of violence that is 
justified by the intransigence of the other party. The Foreign 
Ministers of Britain and France just completed a joint tour of the 
region, and they admitted on departure that the political picture was 
bleak.
    The UN Observer Mission to the Congo (MONUC) has been deployed to 
monitor the implementation of the Lusaka Accords. MONUC merely observes 
the violence that swirls through the country, while frustrated and 
bewildered Congolese hope for more aggressive action from the 
international community to stop the conflict.
    Since access to embattled communities is so difficult, RI can only 
provide isolated examples to describe the catastrophe in the eastern 
Congo:

  <bullet> In Shabunda, the Mayi-Mayi use rape as a tactic of war to 
        prevent displaced women seeking shelter in the town from 
        accessing their fields; as reported on ABC News Nightline, in 
        one incident alone last year 40 women were raped;
  <bullet> In north Katanga province women were unable to bring their 
        children for a vaccination day because they had no clothes and 
        could not be seen in public in daylight hours; men in the 
        community work only in the pre-dawn hours for the same reason;
  <bullet> Child prostitution and sex slavery are proliferating. In 
        Goma, a preliminary survey by a local NGO found that 38 out of 
        41 child sex workers were displaced from the countryside due to 
        the war and economic hardship;
  <bullet> All the armed groups have a systematic policy of pillaging 
        fields at harvest time and stealing crops from farmers trying 
        to bring it home or to market;
  <bullet> In Kindu, the capital of Maniema province and once the 
        breadbasket of the Congo, the impossibility of marketing 
        agricultural products means that a bag of rice has no more 
        value than a bar of soap; unmilled rice is used on muddy roads 
        to give traction to trucks.

    Much of the violence derives directly from the collapse of the 
state. With the government barely functioning, commerce impeded by 
insecurity, and the only viable economy resting on the exploitation and 
smuggling of primary products such as coltan, diamonds, and timber, 
there is no way for large segments of the population to make a living. 
The breakdown in the village economy drives boys and young men to 
enlist in the army, where they are not paid or fed, but at least they 
get a gun. Much of the violence in the east is totally devoid of a 
political or strategic rationale; it is banditry to allow soldiers to 
survive. According to a human rights officer for MONUC, the best way to 
achieve an immediate reduction in the level of violence would be for 
the rebel government in the east, the RCD, to begin paying its soldiers 
and providing them with one meal per day.
    Despite the obstacles, courageous humanitarian personnel attempt to 
work with Congolese authorities and local communities to gain greater 
access and respond to the needs that they find. A promising approach 
being taken by the UN system is to focus on rehabilitating the internal 
transportation network, especially rail lines and river barges, to ease 
the flow of commercial goods and allow humanitarian supplies to reach 
isolated areas. The simple task of repairing a bridge can have an 
immediate humanitarian impact. International and local NGOs are working 
with community-based peace committees that try to negotiate access for 
relief supplies with the local commanders of the armed groups. These 
all-volunteer committees would benefit from an infusion of small 
amounts of resources to give them the means to expand their efforts.
    While MONUC's logistical support to humanitarian efforts is 
appreciated, it is interpreting its limited mandate too conservatively. 
Especially lacking is a public communications effort to disseminate 
information widely on the security situation and the human rights 
abuses that its personnel observe. Previous large-scale peacekeeping 
efforts in Kosovo and Cambodia, for example, have used radio broadcasts 
aggressively to build awareness among the public of the critical 
challenges faced by the respective missions. MONUC needs to clearly 
explain its mission to the Congolese people and make a conscious effort 
to increase its overall credibility through a public information 
campaign.
    Already there are reports of MONUC soldiers raping women and 
demanding the services of child prostitutes in Kisangani and Goma. 
After embarrassing episodes in Cambodia, where such behavior was 
condoned, the UN had made public commitments that these actions by 
peacekeepers in the future would not be tolerated. Given the Congolese 
frustration with MONUC's apparent indifference to their suffering, the 
commanders and civilian personnel of MONUC have no choice but to 
implement a zero tolerance policy for inappropriate behavior by its 
personnel. RI raised this issue with a MONUC child protection officer, 
who informed us that one rape case is proceeding and MONUC is 
cooperating with the investigation. She stressed that MONUC is willing 
to take action if credible evidence of misconduct is presented.
    The UN humanitarian system is attempting to manage the response to 
the emergency in the Congo from Kinshasa. While this approach is 
understandable in that it supports the principle of the territorial 
unity and integrity of this vast country, the practical consequence is 
the relative neglect of the eastern region of the country where the 
needs are greatest. In the east regional humanitarian coordinators have 
to divide their time between their agency duties and their overall 
coordination tasks, while waiting for key decisions to be made in 
remote offices more than one thousand miles distant in the capital. RI 
believes that the UN needs to appoint a high profile humanitarian 
coordinator for the eastern Congo, a senior official who would work 
under the direction of Kinshasa, but who would have the necessary 
weight and authority to advocate for a greater humanitarian response in 
the east and for greater access from the belligerents.
    What is taking place in the eastern Congo at the moment is nothing 
less than a slow-motion holocaust. Yet RI cannot recommend a massive 
external intervention to stop the violence because the political will 
necessary to bring a halt to the war is lacking both internationally 
and among regional and local actors. The humanitarian community is left 
to make the best of an awful situation, bringing relief where temporary 
openings appear.
    Refugees International therefore recommends that:

  <bullet> The international community, especially the United States, 
        Britain, France, and Belgium, put greater pressure on the 
        leaders of Rwanda and the Democratic Republic of the Congo to 
        implement the Lusaka Peace Accords. After an appropriate 
        interval, economic sanctions, including the freezing of the 
        overseas bank accounts of those benefiting from the economic 
        exploitation of Congo's resources, should be the penalty for 
        continued intransigence.
  <bullet> The United Nations appoint a senior official to serve as 
        humanitarian coordinator for the eastern Congo, based in the 
        region, but working under the direction of the overall 
        humanitarian coordinator for the country.
  <bullet> MONUC implement a large-scale, sustained public information 
        campaign, primarily through radio, to explain its mission and 
        report its observations to the Congolese public.
  <bullet> Donors provide greater funding support for infrastructure 
        improvements, especially for the continued rehabilitation of 
        transportation networks throughout the Congo.
  <bullet> UN agencies and international NGOs provide funding to 
        community-based peacebuilding efforts, especially supporting 
        local committees that are creating humanitarian space through 
        negotiations with armed groups.
  <bullet> MONUC adopt a zero tolerance policy for soldiers having sex 
        with minors and raping women.

    Senator Feingold. Well, I want to thank you not only for 
your excellent testimony, but for your enormous patience. We 
have some infrastructure problems too obviously, and I 
apologize for the problem with the microphone.
    I will probably have to leave in a minute to vote, and so I 
will ask some questions now until the vote starts but then I 
will come back and conclude. Maybe we can figure out, at least, 
which is the best microphone while we are gone and pass it 
around. Thank you very much for putting up with that.
    Let me first ask you something that you really all already 
answered, but I really want it on the record from each of you. 
And that is, from your perspective as observers of this crisis, 
is the United States devoting enough high level attention to 
the Democratic Republic of Congo? Are we sufficiently engaged?
    Ms. Hara, I know you have answered this, but I would like 
to get these three answers just next to each other in the 
testimony. Ms. Hara.
    Ms. Hara. Thank you, Mr. Chairman. I think that the crisis 
in the Democratic Republic of Congo has not got the attention 
that it needs, that it deserves. Certainly the U.S. Government, 
as well as the European governments, have supported the 
implementation of the Lusaka process, but we are now at Lusaka 
plus 3\1/2\-years, and I think it is really time to focus on 
outcomes of the process.
    Senator Feingold. Mr. Dees.
    Mr. Dees. Yes. I would give a practical answer to that 
question. We can see a benchmark this week. The meeting in Sun 
City is ending on Friday. What the U.S. Government does in the 
next week is an indication of how seriously they are taking 
that. So, I will leave that for us to see.
    Senator Feingold. Ms. Edgerton.
    Ms. Edgerton. While there has been significant attention at 
various levels within the U.S. Government, I find that high 
level attention is very much lacking, given the magnanimity of 
the crisis in the Congo today. I find that the kind of high 
level attention that is required from the U.S. Government to 
actually generate a response within the ranks is not there.
    Senator Feingold. I agree with those comments. I would just 
make one comment before I ask more questions. Today I wake up 
and realize I am doing a hearing on the Congo. You look at CNN 
and you see the crises in the Middle East and Afghanistan, and 
it looks like India and Pakistan, and all the problems around 
the world. But that is sort of the whole point, which is if we 
are going to be a world leader, we have to learn how to stay 
engaged in places that are very important but are not getting 
enough attention or are not directly on our radar screen all 
the time. We have to be able to focus on more than one thing. 
We are a great nation.
    For example, during the cold war, we had one clear 
objective in dealing with the problem with the Soviet Union and 
sort of defined everything that way. But what we are finding 
out, and one of the reasons that we are having these hearings, 
is if we sort of focus on one thing over here and completely 
neglect another major problem, it is not only very problematic 
for the people in the country affected but that it also affects 
us. So, I am very pleased that we are having this hearing at 
this time.
    That brief comment led me up to the vote time. So, I will 
go vote. I will come back as soon as possible, and I have a few 
more questions. I appreciate the panel's patience. It should 
not be too long. The hearing is in recess.
    [Recess.]
    Senator Feingold. I call the subcommittee back to order. 
Thank you for waiting.
    I would like to ask some questions. Let me just say that 
although I am just one Senator here, I hope you realize again 
that not only Senator Frist but others are very interested in 
this and I want to communicate to you how important we consider 
this subject of the Congo and the related issues. It is my 
intention and I think the intention of others to stay engaged 
in it. So, we want you to realize your words and your efforts 
on this are certainly not wasted.
    Ms. Hara, let me ask you a more specific question about the 
MONUC mandate. You began to refer to this. MONUC troops can 
protect themselves and their colleagues, but they have no 
mandate to stop violence targeted at Congolese civilians or in 
fact to protect civilians in any way. At most they can simply, 
as I understand it, monitor and report on abuses that may 
occur. Now, is that accurate, and has this situation created a 
distrust or anger directed at MONUC on the part of the 
Congolese population?
    Ms. Hara. I believe, Mr. Chairman, that your description is 
accurate. Indeed, there are some reports from the Congolese 
population, from certain specific places in Congo, that MONUC 
is not doing enough, is not deployed in enough places and it is 
not doing enough. Certainly they are not asking for protection, 
but also to witness at least the violence that is committed 
against civilians.
    In Kisangani, for example, there were reports that some 
MONUC troops also misbehaved with the Congolese population.
    Senator Feingold. So, it is partly that people do not 
understand the limitations on MONUC, and some of it may be 
inappropriate behavior in some cases.
    Ms. Hara. Yes, indeed.
    Senator Feingold. Let me followup by commenting that 
monitoring and reporting can only really have a deterrent 
effect on attacks on civilian populations if there are some 
consequences associated with being publicly identified as a 
force that targets civilian populations. Currently are there 
meaningful consequences in this regard? What can the United 
States do to increase the costs of abusing civilians? And is 
there any mechanism for accountability that is being considered 
by the inter-Congolese dialog in this regard?
    Ms. Hara. I do not think that there are mechanisms 
considered by the inter-Congolese dialog for violence committed 
against civilians. But there are certainly ways, and the U.S. 
Government certainly can help in that respect. There are ways 
to insist with the Rwandan and Ugandan and all the occupation 
forces that human rights be respected. Certainly one of the 
things that the U.S. Government could do is insist on the 
respect of the Geneva Convention.
    Ms. Edgerton. Senator Feingold.
    Senator Feingold. Yes, if you would like to comment, Ms. 
Edgerton.
    Ms. Edgerton. If I may. One MONUC human rights officer did 
tell us that one sure way to decrease the violence committed 
against civilians tomorrow would be to pay the RCD, the rebel 
forces, a wage and give them one meal a day.
    Senator Feingold. Let me go back. Ms. Hara, in talking 
about RCD-Goma, I understand that RCD-Goma has a strained 
relationship with many of the civil society organizations in 
the east and that it is very unpopular with large swaths of the 
civilian population in the area it controls. Could you comment 
on what this means for the political dynamics in the east? Does 
the RCD's bad reputation increase ethnic polarization in the 
Kivus? Is there evidence such as hate radio broadcasts of 
escalating ethnic tensions?
    I also understand that some Banyamulenge associations are 
at odds with the RCD in part because they want to disassociate 
themselves from the RCD practices.
    What can be done to ease ethnic tensions in eastern Congo 
in the next few years? If you can just sort of talk about some 
of those issues, Ms. Hara.
    Ms. Hara. That is a big----
    Senator Feingold. A small item.
    Ms. Hara. I think the first thing that I would like to 
mention is that ethnic polarization is not new in eastern 
Congo. Eastern Congo has always been a trouble spot. It has 
always itself been extremely difficult for the Kinshasa 
Government to control, to administer this territory partly 
because there are lots of issues, land and cattle, inter-
community issues, that have been very acute for a long time.
    Now, of course, the Rwandan refugees that have come out of 
Rwanda after the Rwandan genocide have certainly aggravated the 
local tensions, and the two wars, the 1996 and the 1998 wars, 
have again aggravated this local violence.
    There is an issue of RCD administration of this territory. 
The RCD has definitely failed to acquire legitimacy with the 
Congolese population and has failed to provide most of the 
services that this population needs.
    Now, the issue of the Banyamulenge is also a very 
complicated one. Some Banyamulenge are part of the RCD movement 
and others have refused to join the RCD, have refused to 
participate in the second Congo war, and have now created 
organizations that challenge the occupation of Rwandan forces 
and the RCD-Goma. As we talk, there is very heavy fighting 
going on between some of the RCD troops and the local 
Banyamulenge groups associated with Mayi-Mayi groups as well.
    Senator Feingold. Thank you, Ms. Hara.
    Mr. Dees. May I comment on that question?
    Senator Feingold. Yes, Mr. Dees, go ahead.
    Mr. Dees. I have a little different take, having lived in 
the eastern Congo in 1988. I think it is a problem that exists 
across Africa and across the world, ethnic tensions. I think in 
1988 the problem did not exist to a degree that was 
destabilizing in the east. But the thing that we find is poor 
leadership and opportunistic leadership causes ethnic conflict, 
and that is the cause of the conflict in the east currently. It 
is not a historical problem, but it can reappear in any African 
country or even here in the United States. So, I think that is 
an important point.
    In terms of what can be done, obviously one of the key 
issues is demilitarization because the relationship between 
civil society and the RCD is a function of one group having 
force over the other, and that can never be balanced until that 
balance of force is taken into account. There are a number of 
local efforts underway, and a lot of those efforts are being 
undermined by the RCD. So, there is a great willingness after, 
as you can imagine, 6 years of warfare to return to peace, and 
communities are trying to get along but that is being 
destabilized by the RCD.
    Senator Feingold. If there was a peace agreement, what kind 
of programs do you envision that we could actually put into 
place that would help ease these ethnic tensions? What do you 
think could be done?
    Mr. Dees. There are a number of efforts that can be helped. 
I think one of the things that the Congolese are already 
looking at is inter-community dialogs where folks from one 
community are getting together talking to members of a 
community that is neighboring.
    One of the things that can be done is support for local 
radio programs which send a positive message that this is the 
direction we are going to take. Left to their own means, I 
think the Congolese can return to the situation I knew in 1988 
which was peaceful coexistence. I think one of the most 
important things we can do is support radio programs that send 
out that message.
    Senator Feingold. Mr. Dees, I am going to ask you a couple 
more, and if either of you would like to chime in on this, 
please do.
    Mr. Dees, I understand that the field office of the U.N. 
High Commissioner for Human Rights has some 20 human rights 
officers in the Congo and that MONUC has some human rights 
observers on the scene as well. Are these efforts coordinated 
and are they sufficient to monitor conditions in such a vast 
country?
    Mr. Dees. I think that is one of the recommendations I 
would have. It is obviously insufficient and coordination in 
the Congo is a difficult concept. There can be improvement on 
the coordination.
    There was a particular human rights monitor in Kisangani 
who I met with last year when I was there. An effective human 
rights monitor makes a difference, and I think that the number 
of human rights monitors connected with MONUC and supported by 
the U.N. could easily double or triple and they could have the 
same impact where they are located.
    Senator Feingold. Mr. Dees, what incentives can compel the 
parties to the conflict to make a just and lasting peace? For 
example, what about RCD-Goma? Surely they do not believe that 
they are going to prevail in a national election. What is to 
stop RCD or other actors from throwing up obstacles to peace as 
soon as the prospect of losing power becomes apparent? And what 
kind of disincentives would there be to that kind of 
obstructionism? And how is the United States and the 
international community helping to craft that incentive 
structure?
    Mr. Dees. Yes. I think it is an important question because 
obviously the Rwandan Government, as we heard in earlier 
testimony, said it is there primarily for security reasons. I 
think if we take them at their word and there are security 
interests, it is important to focus on what they are 
specifically and to eliminate those issues. As I alluded to in 
my testimony, the AliR forces being isolated and encouraged in 
terms of isolating the leaders and encouraging the rank and 
file to go back is an important issue. That is if we consider 
that they are willing to leave the Congo.
    There is the other possibility, of course, that they are 
not willing to leave the Congo. The only thing that can force 
them to leave is international pressure, and there are various 
levers, including those of the U.S. Government, which provides 
a lot of their support, to do exactly that.
    Senator Feingold. Let me just follow on that. 
Understandably, RCD-Goma is backed by Rwanda. When you talk 
about leaving, you are not referring to the actual Congolese 
members of that leaving. What is the future with regard to 
those people?
    Mr. Dees. Well, I think in the context of process of local 
people making decisions about their local leaders, the RCD does 
not have very much of a future. They do not have popular 
support, and I think they would see the handwriting on the 
wall.
    Senator Feingold. Let me ask all of you to just think about 
an optimistic hypothetical situation. What if, in a few years 
into the future, all foreign troops have withdrawn from the 
Congo, the negative forces are no longer engaged in military 
activity within Congo's borders, and a successful inter-
Congolese dialog has paved the way for a legitimate government? 
The country must deal with tremendous infrastructure problems 
and desperate social needs. Let me start with Ms. Edgerton by 
asking what steps should the United States take at this point 
to help ensure that stability lasts in Central Africa.
    Ms. Edgerton. In fact, when I was last there in January, a 
Congolese said to me if the war were to end tomorrow, it would 
be ``une bonne tragedie'' because there is not the 
infrastructure in place. There are not the plans that are 
currently being sought out that could, in essence, start taking 
place tomorrow to replace what has become a war economy. Kids 
are not going to school and this has been for the past 5 or 6 
years that the national education infrastructure has crumbled, 
not to mention the physical infrastructure of road, rail, and 
barge as well. When you get that kind of isolation in the 
communities and then all of a sudden everyone says, well, there 
is an end to the war and that is the only way anybody knew how 
to make any money, what is in place?
    What needs to be in place is what Mr. Dees mentioned. We 
need to be thinking in the mid- to long-term right now, radio 
programs that are nationwide that reinforce Congolese 
nationality and let citizens know that it is not just their 
area that is undergoing hardship but all over the Congo, that 
foreign troops are not just occupying our village or our town, 
but it is actually rife throughout the Congo that this is 
occurring. OTI has taken up this initiative and is looking at a 
comprehensive radio program, as has MONUC and several NGO's.
    In addition, rehabilitating not only the crumbling health 
infrastructure, but the crumbling educational infrastructure, 
these large infrastructure programs that are being looked at 
right now by the World Bank. The United States is not exactly 
stepping up to the plate as one of the large donors or pledgers 
to these programs. These are the kind of programs that can 
start now to be implemented in areas of security and then 
slowly, as peace does reign, can spread out to other areas.
    But at the same time, there needs to be a recognition that 
emergency assistance is needed in areas that are undergoing 
active war right now, that there needs to be an international 
presence that responds to the needs of civilians only, giving 
them other options.
    Senator Feingold. Mr. Dees, do you want to add to that?
    Mr. Dees. Just to make a connection between opportunity and 
stability. I think my experience in the village where people 
were, for all practical purposes, destitute, the ability to see 
opportunity is perhaps the greatest stabilizing force. In 
Congo, I think to encourage that stability of which--the motor 
is really the resources that exist. So, it is not necessarily 
outside resources coming in to develop the Congo. It is using 
what is there. So, making a connection between giving Congolese 
an opportunity see and use this opportunity perhaps by 
discouraging the militarization of the society is perhaps the 
best way we can do that.
    Senator Feingold. Ms. Hara.
    Ms. Hara. I just want to make a point about the economy. I 
think there is a need obviously for a major economic recovery 
strategy for the whole of Congo, but there is also a need, as I 
was pointing out in my testimony, to establish an environment 
in which people can do business safely. I think that is one of 
the big problems in Congo right now. Violence is used to do 
business, and the business that is being done has no rules. An 
informal economy has always been there in Congo, but the new 
thing now is that violence is used against the civilians. So, I 
think a major international effort would need to be focused on 
establishing rules, establishing a business code of conduct for 
companies.
    Senator Feingold. Thank you.
    Let me ask each of you, if you like, to what degree does 
the history of the United Nations in Congo and, for that 
matter, the history of the United States in Congo hamper our 
efforts to make MONUC as effective as possible and to resolve 
the current crisis? Do you want to start, Ms. Edgerton?
    Ms. Edgerton. One of the wonderful things about the 
Congolese is their ability to recognize what is happening 
today. The arrival of MONUC troops, which I witnessed in 
eastern Congo, was one of the most celebratory times for the 
Congolese. Everything else aside, they thought the 
international community was going to save them from the war. 
Only as time has gone on and they have seen the limitations not 
only of MONUC, but of the lack of international attention to 
their plight, has their dissatisfaction with the United States 
and the international community grown again. It is not that, 
oh, yes, there is a history of our being treated this way. They 
were truly willing to embrace MONUC troops, the idea of U.N. 
soldiers on their soil. They thought that they were coming as 
their liberators. But given the limited actions that have 
actually taken place, including when civilians report human 
rights abuses or cease-fire violations and those reports going 
nowhere and having absolutely no effect, this has a very 
disheartening effect on the Congolese. So, I think that they 
are willing to take us at our word and at our action, and that 
we owe that at the very least.
    Senator Feingold. So, it is pragmatic.
    Ms. Edgerton. Absolutely.
    Senator Feingold. Despite the history and the problems, if 
we are able to perform, they will be open to that.
    Ms. Edgerton. I believe so.
    Senator Feingold. Mr. Dees.
    Mr. Dees. I would agree.
    Senator Feingold. Ms. Hara.
    Ms. Hara. It is only bad leadership who try to use the U.N. 
image. The U.N. was involved in an operation in the 1960's and 
it is only Laurent Kabila who tried to use that and to 
manipulate that, manipulate public opinion against the U.N.
    Senator Feingold. And you do not feel that that succeeded.
    Ms. Hara. But I think I agree with the two other remarks.
    Ms. Edgerton. If I may give another example. While I was 
there in January, the Belgians came to apologize for their role 
in the assassination of Patrice Lumumba, and the Congolese on 
the media and to me personally and in the streets were saying, 
they came here now and that is what they were talking about? 
That is the kind of practicality that you find in the 
Congolese.
    Senator Feingold. That is very interesting, and that is of 
interest to me as well because it is something I have tried to 
get a sense of, to what extent our own Government's actions, 
which were obviously nothing to be proud of, are something that 
still causes problems for us in that country.
    Finally, Mr. Dees, the last question. In a country so 
devastated by mismanagement and conflict, the notion of 
rebuilding functioning institutions is daunting. Give me a 
sense of what current institutions in Congo are still 
functioning today, and to what extent has civil society taken 
over some of the traditional functions of the state? How strong 
is that civil society, and is it capable of uniting or is it so 
polarized along regional, ethnic, or political lines that it is 
not possible?
    Mr. Dees. That is a very fair question. In terms of 
institutions that exist that could take off, I would say the 
only existing institutions are religious institutions, the 
various churches. They are nationwide and they are respected 
across ethnic and regional lines.
    There was an old joke during the end of the Mobutu years 
about an article 15 in the constitution, and that article was 
imaginary, but basically it said, take care of yourself. So, 
that is what many of the Congolese have been doing for the last 
25 years, taking care of themselves.
    One of the key issues in the Congo is the generation issue. 
The political leaders in the Congo that are still active 
represent the independence generation of 1960. Some of the 
names, if you look at those competing for power, with the 
exception of Kabila, are the same people in the history books 
from 1960. So, civil society represents that next generation. 
They will be the leaders. They will be the politicians. They 
will be the hope of the Congo. So, if one is optimistic, one 
believes that they can take up the challenge.
    Senator Feingold. I want to thank all of you. As a member 
of this committee for almost 10 years, I work on many different 
issues and many different countries, but I want you to know 
that there are few situations that I find more compelling and 
few that I want to be involved in more than the plight of the 
Congolese people, their seemingly endless struggle for real 
self-determination and to have a future and a recognition of 
the central importance of this country for Central Africa, all 
of Africa, and much of the world.
    So, I admire your work and I look forward to working with 
you, and I thank you for your testimony today.
    That concludes the hearing.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]


</pre></body></html>
